<html>
<title> - H.R. 1241, H.R. 1818, H.R. 2984, AND H.R. 4234</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            H.R. 1241, H.R. 1818, H.R. 2984, AND H.R. 4234

=======================================================================


                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, March 29, 2012

                               __________

                           Serial No. 112-104

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
73-547                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     Betty Sutton, OH
Tom McClintock, CA                   Niki Tsongas, MA
David Rivera, FL                     John Garamendi, CA
Scott R. Tipton, CO                  Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 29, 2012.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Labrador, Hon. Raul R., a Representative in Congress from the 
      State of Idaho.............................................    16
    Lujan, Hon. Ben Ray, a Representative in Congress from the 
      State of New Mexico........................................     2
        Prepared statement on H.R. 1241..........................     4

Statement of Witnesses:
    Garcia, Hon. Ester, Mayor, Village of Questa, New Mexico.....     6
        Prepared statement on H.R. 1241..........................     8
    Martin, Stephanie L., Programs Coordinator, Friends of 
      Maine's Seabird Islands....................................    37
        Prepared statement on H.R. 2984..........................    38
        Letter submitted for the record..........................    40
    Pool, Mike, Deputy Director, Bureau of Land Management, U.S. 
      Department of the Interior, Oral statement on H.R. 1241....     5
        Prepared statement on H.R. 1241..........................     5
        Oral statement on H.R. 2984..............................    35
        Prepared statement on H.R. 2984..........................    36
        Oral statement on H.R. 4234..............................    20
        Prepared statement on H.R. 4234..........................    21
    Richards, Brenda, Secretary/Treasurer, Public Lands Council..    22
        Prepared statement on H.R. 4234..........................    24
    Weldon, Leslie A.C., Deputy Chief, National Forest System, 
      Forest Service, U.S. Department of Agriculture.............    18
        Prepared statement on H.R. 1818..........................    44
        Prepared statement on H.R. 4234..........................    19

Additional materials supplied:
    Gardner, Christopher, Chair, Washington County Commissioners, 
      Letter to Hon. Rob Bishop submitted for the record on H.R. 
      2984.......................................................    42
    McKeon, Hon. Howard P. ``Buck,'' a Representative in Congress 
      from the State of California, Statement submitted for the 
      record on H.R. 1818........................................    45
    Michaud, Hon. Michael, a Representative in Congress from the 
      State of Maine, Statement submitted for the record on H.R. 
      2984.......................................................    45
    Northern New Mexico Stockmen, New Mexico Cattle Growers' 
      Association, New Mexico Wool Growers, Inc., and New Mexico 
      Federal Lands Council, Letter to Hon. Ben Ray Lujan, 
      submitted for the record on H.R. 1241......................    13
LLEGISLATIVE HEARING ON H.R. 1241, TO ESTABLISH THE RIO GRANDE 
DEL NORTE NATIONAL CONSERVATION AREA IN THE STATE OF NEW 
MEXICO, AND FOR OTHER PURPOSES. ``RIO GRANDE DEL NORTE NATIONAL 
CONSERVATION AREA ESTABLISHMENT ACT''; H.R. 1818, TO DESIGNATE 
MT. ANDREA LAWRENCE, AND FOR OTHER PURPOSES. ``MT. ANDREA 
LAWRENCE DESIGNATION ACT OF 2011''; H.R. 2984, TO DESIGNATE 
CERTAIN FEDERAL LANDS WITHIN THE CROSS ISLAND NATIONAL WILDLIFE 
REFUGE AND THE PETIT MANAN NATIONAL WILDLIFE REFUGE, PART OF 
THE MAINE COASTAL ISLANDS NATIONAL WILDLIFE REFUGE COMPLEX, IN 
LINCOLN COUNTY, HANCOCK COUNTY, AND WASHINGTON COUNTY, MAINE, 
AS WILDERNESS. ``MAINE COASTAL ISLANDS WILDERNESS ACT OF 
2011''; AND H.R. 4234, TO AMEND THE FEDERAL LAND POLICY AND 
MANAGEMENT ACT OF 1976 TO IMPROVE THE MANAGEMENT OF GRAZING 
LEASES AND PERMITS, AND FOR OTHER PURPOSES.
                              ----------                              


                        Thursday, March 29, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:28 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Labrador; Kildee and Holt.
    Also Present: Representative Lujan.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. The Subcommittee is meeting today to hear 
testimony on four particular bills. Under the Rules, the 
opening statements are limited to the Chairman and the Ranking 
Member. However, I ask unanimous consent that any Member may 
submit a statement to the Clerk if done by the close of 
business today. And hearing no objection, so ordered.
    We are here to hear testimony on four particular bills. In 
view of the time, because we are going to try to get this done 
as quickly as possible and there are votes that are going to be 
continuously interrupting us on the Floor, I am going to forego 
any opening statement. Anything I have to say will be put in 
the record.
    I will turn to Mr. Lujan, who is sitting in for Mr. 
Grijalva today, to see if he has an opening statement. 
Hopefully not.
    Mr. Lujan. Mr. Chairman, I will make a quick one as opposed 
to the original one that I had prepared.
    We want to thank you and all of the witnesses that are here 
today for being with us to talk about this important 
legislation bills--one that protects cultural and traditional 
uses of land, landscapes in New Mexico; another protects marine 
coastal life; and the third is the naming of a peak in 
California after a noted Olympian. I am glad that the two 
wilderness bills were part of the extensive public involvement, 
allowing stakeholders to have a voice in this process.
    We also have Congressman Labrador's bill related to grazing 
on Federal land. While I appreciate the intent of my fellow 
Congressman, Mr. Labrador, his bill is a good beginning to a 
conversation on how to address the backlog of grazing permit 
renewals. The current situation of grazing permit renewals is 
untenable. I hope this conversation is the beginning of what we 
can do to help resolve this important issue. I appreciate that, 
Mr. Chairman. With that, I yield back the balance of my time.
    Mr. Bishop. All right. We have four bills that will be 
before us today. I realize there are scheduling conflicts, 
which means that some of the sponsors of these bills will be 
unable to be here. Their statements will appear in the record. 
That also means, since they snubbed us, that their bills have 
the proverbial chance in--oh, never mind.
    [Laughter.]
    Mr. Bishop. We do have two that will be here. Mr. Labrador 
will be here in a minute; I know he is voting and coming back 
here right now. And Mr. Lujan, I believe, is speaking on behalf 
of Mr. Heinrich's bill?
    Mr. Lujan. I actually have a bill myself, Mr. Chairman.
    Mr. Bishop. I am sorry. Do you want to talk about Mr. 
Heinrich's bill? No, I am just kidding.
    We will turn to Mr. Lujan first. If he would introduce his 
bill, when Mr. Labrador gets here, we will have him introduce 
his bill. And then we will go to the panel. Mr. Lujan, please.

   STATEMENT OF THE HON. BEN RAY LUJAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Mr. Chairman, thank you very much. And we have a 
few witnesses that are with us today, namely, our Mayor, The 
Honorable Ester Garcia from Mora. We also have one of our 
allottees from the area under question, Mr. Erminio Martinez, 
and one of our fellow Commissioners from the County of Mora, in 
addition to the responsibilities and hats that he wears, John 
Olivas. Thank you all for being here.
    Mr. Chairman, this is an area in New Mexico where we talk 
about the importance of protecting historic areas, looking at 
small towns and villages, an area of New Mexico that actually 
pre-dates the United States Government, pre-dates the creation 
of the United States Forest Service as well.
    Historically, the towns and villages and Pueblos that have 
lived off the forests and grasslands in New Mexico pre-date the 
creation of the U.S. Forest Service, and we have a close 
cultural connection to the land. Both North Americans and 
Spanish settlers used these lands for subsistence and 
sustenance as well, when we talk about the centuries that they 
have accessed these lands and the treasures surrounding them.
    For those of you who are not familiar with New Mexico's 
rich traditions, a land grant is a communal grant of land given 
to a community or village in perpetuity for the purpose of 
subsistence and sustenance; an acequia is a centuries-old 
irrigation canal which is governed through the collective 
maintenance of the water system so that water can move into 
areas for watering crops, raising animals--both of which have 
allowed New Mexico settlements to thrive and still play an 
important role in our culture, our daily lives, and in the 
relationships between these communities and our public lands.
    We often describe these water systems as the ancient 
aqueducts in Rome. They start at the head gates and they move 
down through hand-carved canals, if you will, earthen ditches, 
that carry this important water.
    Before New Mexico was a territory of the Unites States, 
land grant communities, rural villages and acequias were 
governed through the communal management of natural resources, 
including water, timber, grazing lands, wildlife, herbs, and 
fields that were the life of these communities.
    These traditions still exist today, with many that have 
direct ties to ancestors that go back 12, 13, sometimes 16 
generations, Mr. Chairman. The Rio Grande del Norte National 
Conservation Area, H.R. 1241, is the legislation that we have 
before us today. The threat that development poses to these 
traditions will negatively impact our culture, making 
protection of these lands so critical.
    Not only do these lands represent the collective cultural 
and traditional history of the communities that surround the 
proposed Conservation and Wilderness Area, they also represent 
the collective effort between the conservation community and 
local stakeholders.
    Many years of work went in to the creation of this proposal 
with local communities, grazing permittees, land grant 
communities, acequia organizations, local businesses, and 
conservation organizations. It is truly a reflection of how 
partnership can work and what I hope to be an example of model 
legislation going forward for the State of New Mexico.
    The legislation not only recognizes and reflects the need 
to protect these areas, but also takes into account the special 
access that needs to be allowed for these lands and traditions 
and cultures of the surrounding communities to thrive. I am 
confident, with a few technical changes, that the bill can be 
strengthened to protect the heritage of New Mexico, and I am 
committed to do that.
    Mr. Chairman, the environmentally, culturally, and 
historically rich landscapes of the San Luis Valley and Rio 
Grande Gorge that encompass the proposed Rio Grande del Norte 
National Conservation Area are part of New Mexico's rich 
treasures.
    Growing up in the small community of Nambe, a small farming 
community that I still call home, where we still raise sheep, 
an area of New Mexico where my grandfather, my dad's dad, 
Soledon, actually grazed sheep and ran them right after the 
Great Depression, Mr. Chairman. This is something that is very 
personal to me. It is something that is important to many 
people in New Mexico, and it is something that we look forward 
to accomplishing together.
    Thank you, Mr. Chairman. I yield back my time.
    [The prepared statement of Mr. Lujan follows:]

Statement of The Honorable Ben Ray Lujan, a Representative in Congress 
from the State of New Mexico, on H.R. 1241, To establish the Rio Grande 
    del Norte National Conservation Area in the State of New Mexico

    Mr. Chairman--I want to thank you for having this hearing today to 
talk about the value of protecting our public lands in New Mexico and 
the role they play in living out the centuries old cultures and 
traditions we have in there. H.R. 1241, a bill to establish the Rio 
Grande del Norte National Conservation Area, is a big step forward in 
the effort to protect environmentally sensitive areas as well as 
recognize the traditional uses of the land that means so much to the 
history and future of New Mexico.
    Historically--the towns, villages and Pueblos that have lived off 
the forest and grasslands in New Mexico pre-date the creation of the 
U.S. Forest Service. We have a very close cultural connection to the 
land. Both Native Americans and Spanish settlers used these lands for 
subsistence, and for centuries have treasured and helped to 
successfully manage the resources that the life-giving forests and 
grasslands contain.
    For those of you who aren't familiar with New Mexico's rich 
traditions--a Land Grant is a communal grant of land given to a 
community or village in perpetuity for the purpose of subsistence and 
sustenance--An Acequia is a centuries old irrigation canal which is 
governed through the collective maintenance of the water system so that 
water can flow to the fields for irrigating crops--both of which have 
allowed New Mexico settlements to thrive and still play an important 
role in our culture, our daily lives, and in the relationship between 
these communities and our public lands.
    Before New Mexico was a territory of the Unites States, Land Grant 
Communities, Rural Villages and Acequias were governed through the 
communal management of natural resources, including water, timber, 
grazing lands, wildlife, herbs, and fields that were the life of these 
communities. These traditions still exist today and can be strengthened 
by the protection of areas like those outlined in H.R. 1241--The Rio 
Grande del Norte National Conservation Area. The threat that 
development poses to these traditions will negatively impact our 
culture, making protection of these lands so critical, not to mention 
the protection of vital wildlife habitat and environmentally sensitive 
areas in the region.
    Not only do these lands represent the collective cultural and 
traditional history of the communities that surround the proposed 
Conservation and Wilderness Area, they also represent the collective 
effort between the conservation community and local stakeholders to 
protect lands that are as beautiful as they are culturally sensitive.
    Many years of work went in to the creation of this proposal with 
local comminutes, grazing permitees, land grant communities, acequia 
organization, local businesses, and conservation organizations. The 
legislation not only recognizes and reflects the need to protect these 
areas, but also takes into account the special access that needs to be 
allowed to these lands for the traditions and cultures of the 
surrounding communities to thrive. I am confident with a few technical 
changes that the bill can be strengthened to protect the heritage of 
New Mexico and I am committed to do that.
    Mr. Chairman, the environmentally, culturally, and historically 
rich landscapes of the San Luis Valley and Rio Grande Gorge that 
encompass the proposed Rio Grande del Norte National Conservation Area 
are part of Mexico's rich treasures. Growing up in the small community 
of Nambe I know the importance of access to the land and that is why I 
appreciate the work that has been done with this proposal which offers 
protection of beautiful landscapes, preserves grazing, and specifically 
protects our right to carry out the centuries old traditions that make 
us uniquely New Mexican.
    Thank you
                                 ______
                                 
    Mr. Bishop. Thank you. And I will not make the mistake of 
missing your bill again.
    The panel that is in front of us right now includes Leslie 
Weldon, who is the Deputy Chief of the National Forest System; 
Mike Pool, who is the Deputy Director of the Bureau of Land 
Management; Brenda Richards, who is the Secretary/Treasurer of 
the Public Lands Council; Mayor Garcia, Ester Garcia--we are 
happy to have you here--and Stephanie Martin, who is the 
Friends of Maine's Seabird Islands Program Coordinator. Did I 
miss somebody up there? No? I got you all.
    What I am going to do here is we have just gone through Mr. 
Lujan's bill, which is No. 1241. So what I am going to do is 
ask the comments toward 1241 first. We will check that off.
    Mr. Pool, I will go with you first on 1241 only, and then 
we will turn to Mayor Garcia. Five minutes each for this 
particular bill. Mr. Pool, thank you for being here. You are 
on.

    STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, BUREAU OF LAND 
  MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY 
 JAMES W. KURTH, CHIEF, NATIONAL WILDLIFE REFUGE SYSTEM, U.S. 
   FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Pool. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify on H.R. 1241, the Rio Grande del Norte 
National Conservation Area Establishment Act. The Department of 
the Interior supports H.R. 1241, which designates the nearly 
236,000-acre Rio Grande del Norte National Conservation Area in 
Northern New Mexico, as well as two wilderness areas within the 
NCA.
    The proposed Rio Grande del Norte NCA lies north of Taos on 
the border with Colorado, and straddles Taos and Rio Arriba 
Counties. The area includes several volcanic cones jutting up 
from the surrounding valley, reminders of the area's turbulent 
geologic past. Between these mountains is the Rio Grande, a 
wild and scenic river gorge, carving through the landscape and 
revealing the basalt rock beneath the surface.
    H.R. 1241 is the product of many years of discussions and 
collaborations with the local community, stakeholders, and 
other interested parties. It protects both the valuable 
resources of this area and the way of life in this unique area 
of Northern New Mexico.
    Thank you for the opportunity to testify in support of H.R. 
1241. I will be happy to answer any questions.
    [The prepared statement of Mr. Pool on H.R. 1241 follows:]

  Statement of Mike Pool, Deputy Director, Bureau of Land Management, 
  U.S. Department of the Interior, on H.R. 1241, Rio Grande del Norte 
                     National Conservation Area Act

    Thank you for the opportunity to testify on H.R. 1241, the Rio 
Grande del Norte National Conservation Area Establishment Act. The 
Department of the Interior supports H.R. 1241, which designates the 
nearly 236,000-acre Rio Grande del Norte National Conservation Area 
(NCA) in northern New Mexico as well as two wilderness areas within the 
NCA. The Secretary's November 2011 Preliminary Report to Congress on 
BLM Lands Deserving Protection as National Conservation Areas, 
Wilderness or Other Conservation Designations highlighted the Rio 
Grande del Norte as a proposal deserving Congress' prompt attention.
Background
    The proposed Rio Grande del Norte NCA lies north of Taos on the 
border with Colorado and straddles Taos and Rio Arriba Counties. The 
area includes the Cerro de la Olla, Cerro San Antonio and Cerro del 
Yuta volcanic cones jutting up from the surrounding valley--reminders 
of the area's turbulent geologic past. Between these mountains is the 
Rio Grande Wild & Scenic River gorge, carving through the landscape and 
revealing the basalt rock beneath the surface.
    The human history of the landscape is as diverse as its features. 
Early prehistoric sites attest to the importance of this area for 
hunting and as a sacred site. Today the area is home to members of the 
Taos Pueblo, as well as descendants of both Hispanic and American 
settlers. Wildlife species--including bighorn sheep, deer, elk and 
antelope--bring both hunters and wildlife watchers, while the Rio 
Grande and its tributaries provide blue ribbon trout fishing and other 
river recreation. Above it all soar the golden and bald eagles, prairie 
falcons, and other raptors.
H.R. 1241
    H.R. 1241 designates nearly 236,000 acres of land administered by 
the Bureau of Land Management (BLM) as the Rio Grande del Norte NCA. 
Each of the NCAs designated by Congress and managed by the BLM is 
unique. For the most part, however, they have certain critical 
elements, which include withdrawal from the public land, mining and 
mineral leasing laws; off-highway vehicle use limitations; and language 
that charges the Secretary of the Interior with allowing only those 
uses that further the purposes for which the NCA is established. 
Furthermore, NCA designations should not diminish the protections that 
currently apply to the lands. Section 3 of the bill honors these 
principles, and we support the NCA's designation.
    Section 4 of the H.R. 1241 designates two wilderness areas on BLM-
managed lands within the NCA--the proposed 13,420-acre Cerro del Yuta 
Wilderness and the 8,000-acre Rio San Antonio Wilderness. Both of these 
areas meet the definitions of wilderness. They are largely untouched by 
humans, have outstanding opportunities for solitude and contain 
important geological, biological and scientific features--criteria 
outlined in the Wilderness Act of 1964. We support both of these 
wilderness designations as well.
Conclusion
    H.R. 1241 is the product of many years of discussions and 
collaboration with the local community, stakeholders, and other 
interested parties. It protects both the valuable resources of the area 
and the way of life in this unique area of northern New Mexico.
    Thank you for the opportunity to testify in support of H.R. 1241.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Mayor Garcia, you are recognized for five minutes.

           STATEMENT OF THE HONORABLE ESTER GARCIA, 
                  MAYOR OF QUESTA, NEW MEXICO

    Ms. Garcia. Mr. Chairman and Members of the Subcommittee, 
thank you for holding today's hearing on H.R. 1241, legislation 
introduced by The Honorable Ben Ray Lujan and his colleague, a 
fellow New Mexican and also a Member of this Committee, 
Representative Martin Heinrich.
    My name is Ester Garcia, Mayor of the Village of Questa, 
President of the San Antonio del Rio Colorado Land Grant and a 
Commissioner for the Cabresto Acequia Association. I appreciate 
the opportunity to urge you to support H.R. 1241 to establish 
the Rio Grande del Norte National Conservation Area. As a 
lifelong resident of Northern New Mexico, my family going back 
11 generations living and working in this unique and beautiful 
landscape, I wish to convey to you my heartfelt belief that 
Congress must act to protect what to many of us is truly sacred 
land.
    and I want to congratulate and publicly thank Congressmen 
Lujan and Heinrich, and as well Senators Bingaman and Udall, 
for their leadership. This historic legislation will forever 
protect a truly amazing place in Northern New Mexico, including 
the stunning Rio Grande Gorge, which at some places is a half 
mile wide across, dropping to the Rio Grande River 800 feet 
below.
    Like this Committee, I serve as an elected official within 
my community, as Mayor of the Village of Questa, north of Taos, 
New Mexico. As an elected official, I know the difficult 
choices one must make when representing one's constituents and 
the need to balance competing interests.
    And this is what has brought me here before you today, on 
behalf of not only the citizens I have the pleasure to 
represent, but also the vast majority of all Northern New 
Mexicans who seek to safeguard these special lands for our 
children and grandchildren. I can assure you that support for 
this legislation is broad, deep, and strong.
    I would like to acknowledge Mr. Erminio Martinez, who made 
the journey with me from Taos County. A 12th generation New 
Mexican, Mr. Martinez grazes cattle in Taos County as his 
ancestors have done for hundreds of years. He has also served 
as a Magistrate Judge in Taos County, and has submitted written 
testimony for this hearing.
    My grandfather, J.P. Real, Jose Plajeres Real, and his 
brothers formed a cattle business and general store in Questa 
in 1930. When I grew up, there was no running water. We walked 
to the store, we grew our own food, and put up our hay for our 
cattle. We survived because of the land and the water that 
nature has generously provided for us. As my grandfather said, 
``Sin tierra, no hay nada; sin agua, no hay vida.'' In English, 
``Without land, you have nothing; without water, there is no 
life.''
    So far I am not aware of any disputes with the proposed Rio 
Grande del Norte National Conservation Area. This landscape is 
of extraordinary scenic, environmental, economic, cultural, and 
recreational value. This area is a high mesa of sagebrush and 
grasslands scattered with volcanic cinder cones covered with 
pinon juniper woodlands. Here, in the upper reaches of the Rio 
Grande Gorge, are vital elk wintering grounds, key habitat for 
bighorn sheep, antelope, and deer, and a world-renowned 
migratory corridor for birds of prey--peregrine falcons, bad 
eagles, and golden eagles.
    Across this landscape, we who live nearby and growing 
number of visitors enjoy hunting, fishing, bird watching, 
photography, hiking, camping, river rafting, mountain climbing, 
pinon picking, and the amazing natural scenery. All of this is 
vital support for our local economy. Hunting and fishing alone 
in the Rio Grande area contributes vital financial resources to 
New Mexico's economy.
    Communities such as Questa, Rio Hondo, Cerro, Pilar, and 
Antonito have been bound economically and spiritually to this 
wild landscape for many generations. One of the great virtues 
of H.R. 1241 is that it takes a comprehensive approach to the 
conservation of this landscape, with full recognition that 
there is a long human history to this region and that our small 
communities continue to be an essential element of the 
landscape. The legislation will protect both the natural 
resources and the way of life of this unique area, both of 
which link our communities.
    Those of us with deep roots in Northern New Mexico 
appreciate that the protection of these landscapes preserves 
grazing within the National Conservation Area, and specifically 
protects our right to hunt, fish, and collect pinon nuts, 
herbs, and firewood. It directs the Bureau of Land Management 
to preserve the cultural, natural, and scenic resources in the 
area. This measure will help ensure that these ancestral lands 
will remain as they are for those who will come after us.
    Mr. Chairman, there is overwhelming local support for this 
legislation. Because of the collaborative way our congressional 
delegation has crafted this measure, many groups that have not 
always seen eye to eye on conservation issues have come 
together to support protecting this special landscape.
    Community involvement was extensive, and the considerations 
taken in the bill's language to accommodate the needs of 
traditional communities were significant. The legislation being 
before this Committee today is the product of years of meetings 
and discussions amongst those most affected, and I can assure 
you that Northern New Mexicans overwhelmingly support this 
legislation.
    To ensure that you have a complete record illustrating the 
very broad support for this legislation in our local 
communities, I would like to submit these official documents. 
The first is the Resolution of Support of the Taos County 
Commission, May 19, 2009. As you will see, the Commission's 
resolution mentions the following:
    ``Recommends that Congress enact the Rio Grande del Norte 
National Conservation Area Establishment Act, and that the 
legislation include appropriate language to protect the San 
Antonio Wilderness and the Cerro del Yuta Wilderness in order 
to protect their scenic, environmental, economic, and 
recreational values.''
    I am submitting for the record a list of some of the vital 
support in the proposal.
    Thank you for your consideration, Mr. Chairman and Members 
of the Subcommittee. This concludes my statement. I look 
forward to answering any questions you may have.
    [The prepared statement of Ms. Garcia follows:]

  Statement of Ester Garcia, Mayor, Village of Questa, New Mexico, on 
H.R. 1241, The Rio Grande del Norte Conservation Area Establishment Act

    Mr. Chairman and Members of the Subcommittee, thank you for holding 
today's hearing on H.R. 1241, legislation introduced by my Congressman, 
the Honorable Ben Ray Lujan, and cosponsored by his colleague, a fellow 
New Mexican and also a Member of this Committee, Representative Martin 
Heinrich.
    I appreciate this opportunity to urge your support for H.R. 1241 to 
establish the Rio Grande del Norte National Conservation Area. As a 
life-long resident of northern New Mexico, with my family going back 
many generations living and working in this unique and beautiful 
landscape, I wish to convey to you my heartfelt belief that the 
Congress must act to protect what to many of us is truly sacred land. 
And, I want to congratulate and publicly thank Congressmen Lujan and 
Heinrich, as well as Senators Bingaman and Udall. With their 
leadership, this historic legislation will forever protect a truly 
amazing natural gem, including the stunning Rio Grande gorge--which at 
some places is a half mile wide across, dropping to the Rio Grande 
River 800 feet below.
    Like you, I serve in elective office--as Mayor of the village of 
Questa, north of Taos, New Mexico. As an elected official, I know full 
well the difficult choices one must make when representing one's 
constituents and the need to balance competing interests. And, this is 
what has brought me before you here today--on behalf of not only the 
citizens I have the pleasure to represent, but also the vast majority 
of all northern New Mexicans who seek to safeguard these special lands 
for our children and grandchildren. I can assure you that support for 
this legislation is broad, deep and strong.
    I would like to acknowledge Mr. Erminio Martinez, who made the 
journey here with me from Taos County. A 12th generation New Mexican, 
Mr. Martinez grazes cattle in Taos County as his ancestors have done 
for hundreds of years. He has also served as a magistrate judge in Taos 
County, and has submitted written testimony for this hearing.
    My grandfather, J. P. Real, and his brothers formed a cattle 
business and general store in Questa in 1930. When I grew up, there was 
no running water. We walked to the store, grew our own food, and put up 
hay for our cattle. We survived because of the land and water that 
nature had so generously provided us. As my grandfather said, ``Without 
land you have nothing, without water there is no life.''
    So far as I am aware, no one disputes that the proposed Rio Grande 
del Norte National Conservation Area is a landscape of extraordinary 
scenic, environmental, economic, cultural, and recreational value. This 
is a high mesa of sagebrush and grasslands interspersed with volcanic 
cinder cones covered with pinon-juniper woodlands. Here, in the upper 
reaches of the Rio Grande Gorge, are vital elk wintering grounds, key 
habitat for bighorn sheep, antelope and deer, and an world renowned 
migratory corridor for birds of prey--Peregrine falcons, Bald eagles, 
and Golden eagles.
    Across this landscape, we who live nearby and a growing number of 
visitors enjoy hunting, fishing, bird watching, photography, hiking, 
camping, river rafting, mountain climbing, pinon picking, and the 
amazing national scenery. All of this is vital support for our local 
economy. Hunting and fishing alone in the Rio Grande area contribute 
tens of millions of dollars to New Mexico's economy annually.
    Communities such as Questa, Hondo, Cerro, Pilar, and Antonito have 
been bound economically and spiritually to this wild landscape for many 
generations. One of the great virtues of H.R. 1241 is that it takes a 
comprehensive approach to the conservation of this landscape, with full 
recognition that there is a long human history to this region and that 
our small communities continue to be an essential element of the 
landscape. The legislation will protect both the natural resources and 
the way of life of this unique area, both of which are intrinsically 
linked in our community.
    Those of us with deep roots in northern New Mexico appreciate that 
the protection of these landscapes preserves grazing within the 
National Conservation Area, and specifically protects our right to 
hunt, fish and collect pinon nuts and firewood. It directs the Bureau 
of Land Management to preserve the cultural, natural and scenic 
resources in the area. The measure will help ensure that these 
ancestral lands will remain as they are for those who will come after 
us.
    Mr. Chairman, there is overwhelming local support for this 
legislation. Because of the collaborative way our congressional 
delegation has crafted this measure, many groups that haven't always 
seen eye to eye on conservation issues have come together to support 
protecting this special landscape. Community involvement was extensive 
and the considerations taken in the bill's language to accommodate the 
needs of traditional communities were significant. The legislation 
being before this subcommittee today is the product of years of 
meetings and discussions amongst those most affected, and I can assure 
you that northern New Mexicans overwhelmingly back it.
    To ensure that you have a complete record illustrating the very 
broad support for this legislation in our local communities, I would 
like to submit these official documents. The first is the Resolution of 
support of the Taos County Commission, May 19, 2009. As you will see, 
the Commission resolved that it:
        . . .recommends that Congress enact. . .the Rio Grande Del 
        Norte National Conservation Area Establishment Act, and that 
        the legislation include appropriate language to protect the Rio 
        San Antonio Wilderness and the Cerro del Yuta Wilderness in 
        order to protect their scenic, environmental, economic, and 
        recreational values.''
    I am also submitting for the record a list of some of the varied 
supporters for the proposal.
    Thank you for your consideration, Mr. Chairman and Members of the 
Subcommittee. This concludes my statement. I look forward to answering 
any questions you may have.
Endorsing Newspapers:
    Taos News
    Santa Fe New Mexican
    Albuquerque Journal
Endorsing Organizations:
    San Antonio de Rio Colorado Land Grant
    Taos County Chamber of Commerce
    Mora Valley Chamber of Commerce
    Hondo Mesa Community Association
    Sustain Taos Rivers and Birds Western Environmental Law Center
    Taos Business Alliance
    Taos Land Trust
    Latino Sustainability Institute
    New Mexico Wildlife Federation
    New Mexico Backcountry Hunters and Anglers
    New Mexico Wilderness Alliance
    The Wilderness Society
Business owners:
    Act One Gallery
    Acuarelas Studio Gallery
    Angie Colman Studio
    Antiquarians Imports
    Art Divas
    Bookmarks Literary Services
    Brazos Fine Art
    Charles Collins Gallery
    Chantal
    Christmas in Taos Village Shop
    Claireworks
    Clark and Company
    Cold Smoke Photography
    Copy Queen of Taos
    Coyote Moon
    Dragonfly Cafe
    Dobson House Bed and Breakfast
    Doug West Gallery
    El Porvenir
    El Rincon Trading Post
    Emily Ruffin Design
    Enchanted Dreams Foundation
    Far-Flung Adventures
    Fernandez de Taos Bookstore
    Fidget Gallery
    For Art's Sake
    Francesca's Clothing Boutiques
    Frank Seckler Gallery
    From the Andes
    Garden and Soul
    Gypsy 360 Cafe
    Hair Bodyworks
    Hondo Mesa Community Association
    Hotel La Fonda
    Import Outlet
    Indian Hills Jewelry, Inc.
    Jack Leustig Imaging
    Jewelry and Painting Studio
    La Lana Wools
    Las Comadres
    La Tierra Mineral Gallery
    Leatherworks
    Maison Faurie Antiquities
    Maverick County Cafe
    Mineral and Fossil Gallery
    Michael McCormick Gallery
    Michael G. Rosenberg and Associates, P.C.
    Moby Dickens Bookshop of Taos
    Morgan Gallery
    Mountain Comfort Furnishings
    Nicolas Salads and Soups
    North Star Inn
    Old Taos Traders
    One World
    Pitter Patter Collections, Inc.
    Robert Mirabal Music Flutes and Native Gifts
    Roosters Coffee
    Sage Fine Art
    Sapo
    Sands of Time Glass
    Scott Carlson Pottery
    Seco Pearl
    Southwest Framers
    Southwest Sew and Vac
    Stephan Killborn Gallery
    Shoe-ri-fic
    Starving Artists Gallery
    Spanish Steps Gallery
    Steppin' Out and Steppin' Out 2
    Sun Shades of Taos
    Stephen Rose, Attorney-at-Law
    Starr Interiors
    Silvermountain Designs
    Tailwater Gallery and Flyshop
    Taos Adobe Quilting
    Taos Artisans Gallery
    Taos Business Alliance
    Taos Cookery
    Taos Cow, Arroyo Seco
    Taos Blue
    Taos Cowboy
    Taos Fly Shop
    Taos Inn
    Taos Lending Team
    Taos Mercantile Co
    Taos Mountain Outfitters
    Taos Sunflower Yarns and Fibers
    Taos Trading Company
    The Bean, Inc.
    The Broadsky Bookshop
    The UPS Store
    Three Dog Art
    The Yarn Shop
    The Taos Company
    The Toy Basket
    Total Arts Gallery, Inc.
    Twirl
    Twining Weavers
    Walden Fine Art
    Wildsmith Gallery
    Wolf Prints
    Woodall Fine Art Enterprises, Inc.
    Xocoatle Chocolate
                                 ______
                                 

                     Testimony of Erminio Martinez

                 Land Committee Chair, Taos Land Trust

                 on H.R. 1241, The Rio Grande del Norte

              National Conservation Area Establishment Act

                            Presented to the

                  House Committee on Natural Resources

        Subcommittee on National Parks, Forests and Public Lands

                             March 29. 2012

    Mr. Chairman and members of the Subcommittee, I wish to thank you 
for the opportunity to offer my strong support for H.R. 1241 which will 
establish the Rio Grande del Norte National Conservation Area in Taos 
and Rio Arriba Counties, New Mexico. I was born and raised in Taos 
County, and come from a ranching family that has lived off the land for 
eight generations. Today, as a registered grazing permittee, I continue 
to run cattle on several allotments throughout the Carson National 
Forest. Growing up in the ranching business allowed me the good fortune 
of spending most of my life in the great outdoors. Like my father and 
grandfather, I quickly learned to love the beauty and fragility of the 
wide open landscapes and to understand the importance of sound 
conservation of the abundant natural resources on which so many New 
Mexicans depend for their livelihoods.
    After my military service, I attended New Mexico Highlands 
University and then the National Judicial College. I served for many 
years as a magistrate judge, and have worked for the Taos tribal 
government and the Pojoaque tribal government. I continue to be active 
in conservation, including through my service with local land trusts.
    To me, the wide open landscape of the Rio Grande del Norte area is 
a treasure that we must do all we can to protect. It is not only a 
natural treasure, but also a treasury of cultural resources and 
associations, evoking the Native American, Spanish, and American 
history that contribute to the diverse values of this area. Even though 
this region may seem relatively remote, it lies in the path of 
pressures for change that could slowly but surely nibble away at the 
ecological integrity that makes this landscape so special.
    To my way of thinking, conservation is all about exercising 
foresight, assuring protection of great places like this today, rather 
than leaving it for our grandchildren to try to reclaim the values our 
generation enjoys here today. I like what Teddy Roosevelt said about 
the Grand Canyon, and think his advice should be our guidance for the 
Rio Grande del Norte: ``In the Grand Canyon, Arizona has a natural 
wonder which is in kind absolutely unparalleled throughout the rest of 
the world. I want to ask you to keep this great wonder of nature as it 
now is. Leave it as it is. You cannot improve on it. The ages have been 
at work on it, and man can only mar it.''
    The Grand Canyon, of course, is a national park and is protected 
from development that would destroy it. With the Rio Grande del Norte 
we have a more complex challenge, for this is a working landscape that 
embraces traditional land uses such as ranching, hunting, fishing and 
wood and herb gathering. For example, local multi-generational ranching 
families like mine rely on their use of portions of these federal lands 
for grazing their livestock. This use is well-protected in the 
legislation, including assurance of continuation of established 
livestock grazing within the two small wilderness areas that will be 
designated by this bill.
    Under the pending legislation, a comprehensive conservation and 
management plan will be prepared, with full opportunity for input from 
local residents, including grazing permittees and acequias 
associations. In this sense, the legislation creates an overall 
conservation framework for the area, and the subsequent conservation 
plan will fill in essential details. That will be done in an open, 
public, and democratic process, which assures all of us who live and 
work here that our voices will be heard in shaping the conservation and 
management of this tremendous resource.
    I commend Congressman Ben Ray Lujan for introducing this important 
measure, and thank Congressman Martin Heinrich for being a cosponsor. I 
urge the Committee to approve this bill and the full Congress to pass 
it into law this year.
                                 ______
                                 
    Mr. Bishop. Thank you very much. We will go to questions 
now on this particular bill. First of all to Mr. Lujan, if you 
have questions.
    Mr. Lujan. Mr. Chairman, as we begin, I would just like to 
ask unanimous consent that I submit into the record a letter 
from the Northern New Mexico Stockmen, the New Mexico Cattle 
Growers Association, the New Mexico Wool Growers, and the New 
Mexico Federal Lands Council.
    They submitted a letter in which there were some concerns 
that they had with the legislation, but I believe that you will 
be happy to see, Mr. Chairman, that there are some technical 
amendments that we will be able to go through today or with the 
staff that will address many of these issues.
    Mr. Bishop. Without objection, it will be part of the 
record.
    [The letter submitted for the record by Mr. Lujan follows:]


    [GRAPHIC] [TIFF OMITTED] 73547.003
    
    [GRAPHIC] [TIFF OMITTED] 73547.004
    
                                ------                                


    Mr. Lujan. Thank you very much, Mr. Chairman.
    Mr. Chairman, in addition, we will be getting the letters 
of support that the Mayor referred to in her statement, and we 
will be asking unanimous consent to submit those letters into 
the record.
    Mr. Bishop. Thank you.
    Mr. Labrador, do you have any questions on this particular 
bill?
    Mr. Labrador. No.
    Mr. Bishop. Oh, I am sorry. Mr. Lujan, if you still have 
some questions, you still have four minutes. Go for it.
    Mr. Lujan. Appreciate that timing. Thank you, Mr. Chairman.
    Mayor, when we talk a little bit about your involvement 
with the land grants and acequias and traditional communities, 
the importance of what is happening to bring in many areas. And 
if you could highlight as well, I think there is support from 
all of the allottees that are on this particular area of land 
that is in reference to this piece of legislation. If you could 
talk about their support, or any concerns they may have.
    Ms. Garcia. Yes, of course. Our grazing permittees are very 
much in favor of this. It would protect their rights with the 
Conservation Area with their grazing permits. The local people, 
the land grant areas, also are very supportive of this 
legislation. They do not want to see their land, their common 
lands, up for exploration of businesses or for these lands to 
be sold. They would like to keep them within their areaships 
for the land grants.
    The water, of course, we always look to protect our waters 
because we feel that that is our livelihood, our waters, and we 
want to protect the waters, make sure that they stay clean and 
available for our people.
    Mr. Lujan. Thank you very much, Mayor. And in the letter 
that we received from the four entities that I stated earlier, 
which we very much appreciate their input, there are a few 
areas in there that they have talked about that they would 
especially like to outline. Can you talk about the importance 
of traditional uses and why that is important to include in 
this legislation?
    Ms. Garcia. Yes. I think my people would like to make sure 
that the Treaty of Guadalupe de Hidalgo be honored, and that 
our traditional uses of herb gathering, wood cutting, hunting, 
the grazing, that all that be protected for us with this bill. 
And it is very important--our acequias are very important. Our 
water is very important. And so those are important things to 
my people.
    Mr. Lujan. And Mayor, can you also talk about the 
importance, when we talk about the time constraints sometimes 
put on us, when you have to go to maintain the comportas, the 
head gates, of the acequias, the ditches, the irrigation 
system; and then also conversations that you may have had with 
the allottees about making sure that they are able to use 
existing roads with motorized vehicles when they need to 
maintain those lands.
    Ms. Garcia. Exactly. Sometimes our head gates are within 
these areas, either BLM or Forest Service, and we want the 
opportunity to continue to maintain those head gates or clean 
our creeks that provide the water into our acequias.
    Also, the permittees are very much conservationists. They 
always make sure that they work on the areas where they graze 
by doing their drinking tanks, that they maintain those. They 
do a lot of work that otherwise would not get done. And so we 
try to preserve those things.
    And the mountain bikes, there are areas that they can 
mountain bike that we have no problem with.
    Mr. Lujan. And Mayor, last, there is also a concern as we 
talk about how the Secretary should support the ability for 
many of our allottees to be able to still produce their 
animals. And I know we are running out of time here, so after I 
ask the question, I will get back to you and we can get 
something in writing.
    But Mr. Chairman, one of the technical amendments that we 
are looking at, and I think this is something that Mr. Labrador 
may be able to find some support for as we get a chance to talk 
about grazing as well, is making sure that the Secretary 
considers these permits based upon the amounts of permits in 
the area, date of enactment upon the last tenure of permits.
    So thank you very much, Mr. Chairman. I look forward to 
having that conversation.
    Mr. Bishop. Thank you.
    Mr. Labrador, now do you have questions on this one?
    Mr. Labrador. I do not, Mr. Chairman.
    Mr. Bishop. OK. Mr. Kildee, do you have questions on this 
bill?
    Mr. Kildee. Thank you, Mr. Chairman. Just briefly, very 
much to Her Honor, the Mayor, this area would have some 
conservation area and some wilderness area. Will there be a 
balance here where the beauty and the unique aspects will be 
maintained, while at the same time improving the economy of the 
area?
    Ms. Garcia. Yes.
    Mr. Kildee. And are you watchful for that for the future?
    Ms. Garcia. Yes. It will surely help my community. My 
community is not a wealthy community, and so it would really 
help my people for the economic reasons, and at the same time 
preserve our land, the beauty of the land. I do not, if you 
have ever been to Northern New Mexico, but it is beautiful, and 
we would like to protect that. But we also need economics for 
our community. And the fishing, the hunting, all of that will 
bring that to our community.
    Mr. Kildee. I appreciate that. I commend you for being 
aware of having that balance and trying to maintain that 
balance, and help the economy at the same time that people come 
and enjoy the wonders and beauty of the area. So I commend you 
very much for that.
    Ms. Garcia. Thank you.
    Mr. Kildee. And I am glad to support the bill. Thank you 
very much, Your Honor.
    Ms. Garcia. Thank you.
    Mr. Bishop. Thank you.
    Mr. Holt, do you have any questions for this bill?
    Dr. Holt. No, thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I really do not have any other 
questions as well other than Mr. Lujan has already put into the 
record the letter. I want to make sure that we work together so 
that those land users have their questions satisfied.
    With that, I appreciate your testimony. Appreciate you 
being here.
    Let us move on to the next bill, which is Mr. Labrador's, 
which will be 4234.
    Mr. Labrador, I will recognize you first to introduce your 
bill, and then we will go to the witnesses on the panel.

   STATEMENT OF THE HON. RAUL LABRADOR, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Labrador. Thank you, Chairman Bishop and Ranking Member 
Lujan, for convening this hearing today regarding my 
legislation, H.R. 4234, the Grazing Improvement Act. I would 
also like to thank you, Mr. Chairman, for joining me as an 
original cosponsor to this bill.
    I would also like to welcome Brenda Richards of Murphy, 
Idaho who is serving as a witness today. As a rancher, she can 
speak from practical experience of the challenges she faces on 
a daily basis. Brenda has a unique perspective and will serve 
as a huge asset to this panel. She will provide expert analysis 
of how this legislation will affect the livestock industry in 
my State.
    Livestock grazing is an important part of the rich ranching 
heritage of Idaho and across the American West. It is an 
integral part of our cultural fabric and our economic security. 
As such, we must preserve it for future generations.
    Ranchers are proud stewards of the land, yet the process to 
review their permits is severely backlogged due to litigation 
aimed at eliminating livestock from public lands. The Federal 
land managing agencies cannot keep up with the pace of 
litigation and the required environmental analysis, which 
diverts limited resources from these agencies and leaves 
ranchers at risk of losing their grazing permits and thus 
jeopardizing their livelihood.
    Agriculture is a hard way to make a living, but producers 
choose this path because it is their livelihood, their passion, 
and their way of life. Several researchers in my State of Idaho 
have said that if they were to lose their grazing permit, they 
would have to subdivide their land. The intent of my 
legislation is to provide more stability to this industry.
    What my legislation does is, number one, extends livestock 
grazing permits from 10 to 20 years in order to give producers 
adequate longevity and production stability. Number two, it 
codifies existing appropriation language to put into statute 
annual riders. Number three, it encourages the respective 
Secretaries to utilize categorical exclusions to expedite 
permit processing. And, number four, it modifies the 
administrative appeals process.
    Today's topic is a high priority for the State of Idaho. We 
must alleviate the problems caused by a tedious bureaucratic 
process created only to satisfy the environmental agenda. Our 
ranchers depend upon it.
    I commend the Chairman for convening this hearing today to 
shed some light on existing statutes that should be modernized. 
I believe that protecting our environment can be done in a 
manner that does not impede our economic growth; in fact, it 
must be done in that manner. It is time that we improve our 
regulatory structure so that we continue to prosper as a 
Nation. We can no longer allow the Federal Government to 
maintain an enormous backlog in processing grazing permits.
    I am grateful the Committee is moving my legislation 
forward in hopes of ensuring grazing certainty and stability 
for America's livestock producers. I look forward to listening 
to the input our distinguished panel has to offer. Thank you 
for being here today.
    Mr. Bishop. Thank you.
    We will now turn to the panel. Once again, for those who 
are here for the first time with our committee or are new to 
the Committee, the timer is in front of you there. When it is 
green, you are good to go, yellow means you have one minute 
left, and the red means I would prefer you not talk.
    We will go down in the following order: Deputy Chief 
Weldon, if you would address this particular bill. Then we will 
go to Mr. Pool on this particular bill, and then finally Ms. 
Richards on this particular bill.
    Ms. Weldon?

STATEMENT OF LESLIE A.C. WELDON, DEPUTY CHIEF, NATIONAL FOREST 
  SYSTEM, U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you, Mr. Chairman, Congressman Lujan, 
Members of the Subcommittee. My name is Leslie Weldon, Deputy 
Chief of the National Forest System in the Forest Service. The 
Department supports portions of H.R. 4234, the Grazing 
Improvement Act of 2012, and would like to work with the 
Committee on other portions as written.
    Regarding H.R. 4234, the Forest Service enjoys a 
cooperative relationship with the fast majority of the over 
6800 individuals who hold permits for grazing on approximately 
8.3 million animal unit months over 94 million acres of 
National Forest and grasslands. Grazing permittees have helped 
provide for effective stewardship of our public lands for many 
decades.
    The Department understands and shares the Committee's 
desire for increasing administrative efficiencies for both the 
Forest Service and the permittee. The Department supports the 
concept of a 20-year permit where allotments are meeting Forest 
Plan standards, and it also supports making the annual 
appropriations language permanent so that permittees will be 
allowed to continue their use uninterrupted while the Forest 
Service proceeds to complete NEPA per the Rescission Act 
schedule.
    While we support providing the line officer with the option 
to use a categorical exclusion where the parameters of what 
constitutes a ``minor adjustment'' are narrowly defined, we do 
not support requiring the use of categorical exclusions. We 
would appreciate the opportunity to work with the Committee on 
specific language that constitutes ``minor modifications'' that 
would qualify for categorical exclusions.
    We have completed NEPA analysis on three-fourths of our 
grazing allotments, and would note that whether we ultimately 
utilize a categorical exclusion or an environmental assessment, 
the upfront analysis work in determining the conditions of the 
range is similar.
    The Department does not support the language that provides 
for a new appeals process. The Forest Service is currently 
completing the revision of appeal regulations in an effort to 
provide for a more streamlined and efficient process. We are in 
the process of incorporating public comments to this proposal. 
We believe regulations will provide for the most appropriate 
and effective means to address administrative decisions.
    We welcome the opportunity to work with the Committee on 
the legislation to develop a bill that both increases the 
efficiencies and protects the long-term health of our National 
Forests and grasslands. The Department appreciates Congressman 
Labrador's support for streamlining the grazing program.
    Thank you for the opportunity to appear before you today, 
and I look forward to answering any questions.
    [The prepared statement of Ms. Weldon on H.R. 4234 
follows:]

Statement of Leslie A.C. Weldon, Deputy Chief, National Forest System, 
 Forest Service, U.S. Department of Agriculture, on H.R. 4234, Grazing 
                        Improvement Act of 2012

    The Department appreciates the opportunity to provide its views on 
H.R. 4234, the ``Grazing Improvement Act of 2012''. The Forest Service 
enjoys a cooperative relationship with the vast majority of the over 
6,800 individuals who hold permits for grazing authorizing at total of 
approximately 8.3 million animal unit months on over 94 million acres 
of National Forests and Grasslands. Grazing permittees have helped 
provide for the effective stewardship of our public lands for many 
decades. The Forest Service's grazing program not only helps support 
the economies of rural communities across the west, but it also helps 
maintain open space on private lands. Most permittees utilize and need 
both public and private lands to graze livestock economically. The loss 
of grazing on public lands can result in the loss of grazing on private 
lands that may lead to the conversion of private open space to other 
uses such as subdivision development.
    The Department understands and shares the Committee's desire for 
increasing administrative efficiencies for both the Forest Service and 
the permittee and while the Department supports certain provisions, we 
cannot support H.R. 4234 as written. Specifically, the Department has 
concerns with: requirements and definitions in the use of categorical 
exclusions, suspension of agency decisions until appeals are resolved 
and use of a different appeals process than is currently being 
developed. The Department is willing to work with the Committee to see 
if these differences can be resolved.
    H.R. 4234 would revise the permitting process for grazing in the 
Federal Land Policy and Management Act of 1976. Specifically, the bill 
would extend the duration of the permit from 10 years to 20 years. It 
is intended to make permanent the language used in annual appropriation 
riders which has required expiring permits to be renewed with existing 
terms and conditions if NEPA has not been completed on allotments 
associated with the permit. It would establish and require the use of 
legislated categorical exclusions from the requirement to prepare an 
environmental analysis under the National Environmental Policy Act 
(NEPA). The categorical exclusions would be used if the decision 
continues the current grazing management on the allotment and if only 
minor modifications are needed to the permit. Consistent with the 
appropriations rider, the bill also would provide the Secretary with 
the sole discretion to determine the priority and timing for completing 
the environmental analysis of a grazing allotment, notwithstanding the 
schedule in section 504 of the Rescissions Act. Finally it would create 
a new process for appealing Forest Service decisions relating to 
grazing permits.
    The Department understands and shares the Committee's desire for 
increasing administrative efficiencies for both the Forest Service and 
the permittee. The Department supports the concept of having the 
flexibility to issue a longer term permit where allotments are meeting 
Forest Plan standards. The Department also supports making the annual 
appropriations language permanent so that permittees will be allowed to 
continue their use uninterrupted, while the Forest Service proceeds to 
complete NEPA per the Rescissions Act Schedule. While we support 
providing the line officer with the option to use a categorical 
exclusion category where the parameters of what constitutes a minor 
adjustment are narrowly defined, we do not support requiring use of 
categorical exclusions. We would appreciate the opportunity to work 
with the Committee on specific language regarding what constitutes 
minor modifications that would qualify for categorical exclusions. We 
have completed NEPA analyses on three-fourths of our grazing allotments 
and would note that whether we ultimately utilize a categorical 
exclusion or an environmental assessment, the upfront analysis work in 
determining the conditions of the range, is similar.
    The Department does not support the language in H.R. 4234 that 
provides for a new appeal process. The Forest Service is currently 
completing the revision of appeal regulations in an effort to provide 
for a more streamlined and efficient process (36 CFR 251, subpart C, 
``Appeal of Decisions Related to Occupancy and Use of National Forest 
System Land''). We are in the process of incorporating public comments 
received. We believe these regulations, which will be designated 36 CFR 
214 will provide for the most appropriate and effective means to 
address administrative decisions. We would also like to work with the 
Committee to consider language which would increase the responsibility 
of the permittees to ensure some level of self-monitoring of allotments 
to assist in ensuring the long-term health of these watersheds and 
landscapes.
    The Forest Service is also concerned that H.R. 4234 would require 
the Forest Service to suspend a decision, if a permittee appeals a 
grazing permit or lease decision, until the appeal is resolved. While 
there are situations which can wait for the conclusion of the appeals 
process, there are others that may require more immediate action; e.g., 
unauthorized use of an allotment, significant impacts to other 
allotments, non-payment, unacceptable resource damage, etc. The 
Department cannot support the language that requires categorical 
exclusions for crossing or trailing permits as the Forest Service 
completes the required environmental analyses for these situations 
during the allotment NEPA process.
    While the Department does not support the bill as written, the 
Department supports the intent of the bill and would like to work with 
the Committee on specific language and concerns as noted. We do not 
want to increase efficiencies at the expense of good land stewardship. 
While the majority of the grazing permittees are excellent stewards in 
caring for the range resource, we also have examples where permittees 
need to take action to improve range conditions.
    We welcome the opportunity to work with the Committee on the 
legislation to develop a bill that both increases efficiencies and 
protects the long-term health of our National Forests and Grasslands.
    Thank you for the opportunity to appear before you today and would 
be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Mr. Pool?

    STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Pool. Thank you, Mr. Chairman, and thank you for 
inviting the Department of the Interior to testify on H.R. 
4234, the Grazing Improvement Act.
    The ability to analyze complex permits and leases while 
engaging the public through the environmental review process 
under NEPA is a crucial component of the BLM's multiple use 
management of the public lands. At the same time, the BLM 
recognizes that sustainable use of public range lands is 
important to people who make their living on these landscapes, 
people like our BLM permittees.
    Livestock grazing is an important part of the BLM's 
multiple resource mission. At the right levels and timing, 
grazing can serve as an important vegetation management tool, 
improving wildlife habitat and reducing the risk of 
catastrophic wildfire. The BLM is committed to collaborating 
with those who work on the public lands, and takes seriously 
its charter to conserve and manage healthy range lands for 
current and future generations.
    The Department shares the Committee's interest in 
increasing efficiencies in public land grazing administration 
as well as finding ways to make permit renewal less complex, 
costly, and time-consuming. However, the Department cannot 
support H.R. 4234 because of the provisions for automatic 
permit renewal without assurances that permittees are meeting 
land health standards.
    The BLM also has concerns with the categoric exclusion from 
analysis under NEPA for all livestock crossing permits, as well 
as the limitations the bill would place on BLM's ability to 
provide for appropriate environmental review and public 
involvement.
    The BLM, as with the Forest Service, would like to work 
with this Committee to make progress on these shared goals 
while maintaining the integrity of NEPA, the Nation's bedrock 
environmental and citizen involvement law, and the Federal Land 
Policy Management Act, a multiple-resource statute requiring 
consideration of the many uses and values of public lands.
    Thank you again for the opportunity to testify today, and I 
too would be happy to answer any questions.
    [The prepared statement of Mr. Pool on H.R. 4234 follows:]

  Statement of Mike Pool, Deputy Director, Bureau of Land Management, 
U.S. Department of the Interior, on H.R. 4234, The Grazing Improvement 
                                  Act

    Thank you for the opportunity to present the views of the 
Department of the Interior (Department) on H.R. 4234, the Grazing 
Improvement Act. The Bureau of Land Management (BLM) is dedicated to a 
broad range of stewardship goals, including the long-term health and 
viability of the public rangelands. Our Nation's rangelands provide and 
support a variety of goods, services, and values important to every 
American. In addition to being an important source of forage for 
livestock, healthy rangelands conserve soil, store and filter water, 
sequester carbon, provide a home for an abundance of wildlife, provide 
scenic beauty and are the setting for many forms of outdoor recreation.
    The BLM recognizes that the conservation and sustainable use of 
rangelands is important to those who make their living on these 
landscapes--including public rangeland permittees. Public land 
livestock operations are important to the economic well-being and 
cultural identity of the West and to rural Western communities. 
Livestock grazing is an integral part of BLM's multiple-use mission, 
and at the right levels and timing, can serve as an important 
vegetation management tool, improving wildlife habitat and reducing 
risk of catastrophic wildfire.
    The BLM is committed to collaborating with those who work on the 
public lands and takes seriously its challenge to conserve and manage 
healthy rangelands for current and future generations.
    The Department shares the Committee's interest in identifying 
opportunities for increasing efficiencies in public land grazing 
administration, as well as finding ways to make permit renewal less 
complex, costly, and time-consuming. The BLM would like to work with 
the Committee to further these shared goals. However, the Department 
cannot support H.R. 4234 as it limits the BLM's ability to provide for 
appropriate environmental review and public involvement--critical 
components of the BLM's multiple-use management of the public lands--as 
well as the BLM's ability to implement permits that have been appealed. 
The Department looks forward to continuing a dialogue with the Congress 
on these important matters.
Background
    The BLM manages approximately 17,750 livestock grazing permits and 
leases for 12.3 million AUMs (animal unit months) on over 160 million 
acres of public lands in the West. Since 1999, the BLM has evaluated 
the health of the rangelands based on standards and guidelines that 
were developed with extensive input from the ranching community, as 
well as from scientists, conservationists, and other Federal and state 
agencies. The BLM collects monitoring and assessment data to compare 
current conditions with the standards and land use plan objectives. 
This information is used to complete environmental assessments, to 
develop alternative management actions, and to modify grazing 
management as needed.
    The BLM administers the range program through issuance of grazing 
permits or leases. The Federal Land Policy and Management Act (FLPMA) 
provides for a 10-year (or less) term for grazing permits. In a typical 
year, the BLM processes over 2,000 permit renewals or transfers. In 
1999 and 2000, the BLM saw a spike in permit renewals, when over 7,200 
permits were due for renewal. The BLM was unable to process all those 
permits before expiration, which resulted in a backlog of grazing 
permit renewals that remains today. By the end of the 2012 Fiscal Year, 
BLM anticipates that a backlog of 4,200 unprocessed permits will 
remain. The BLM is committed to eliminating the backlog of grazing 
permit renewals and to issuing permits in the year they expire. An 
increase in appeals and litigation of grazing management decisions 
continues to pose significant workload and resource challenges for the 
BLM.
    The BLM will continue to focus on grazing permits for the most 
environmentally sensitive allotments, using authorities Congress 
provided in the FY 2012 Consolidated Appropriations Act concerning 
grazing permit renewals and transfers. This strategy will allow the BLM 
to address a wide array of critical resource management issues through 
its land health assessments and grazing decisions. Additionally, this 
strategy will help ensure that the backlog of unprocessed permits 
consists of the least environmentally-sensitive allotments that are 
more custodial in nature and/or that are already meeting land health 
standards.
H.R. 4234
    H.R. 4234 provides for automatic renewal of all expired, 
transferred, or waived permits, and categorically excludes all permit 
renewals, reissuance, or transfers from preparation of an environmental 
analysis under the National Environmental Policy Act (NEPA) if the 
decision continues current grazing management of the allotment. Terms 
and conditions of the permit would continue until a permit is later 
renewed in full compliance with NEPA and other Federal laws. The bill 
does not first require a determination that the permittee is meeting 
land health standards. H.R. 4234 also doubles the duration of grazing 
permits from 10 to 20 years, and stipulates that livestock crossing and 
trailing permits are administrative decisions that would also be 
categorically excluded from analysis under NEPA. Additionally, it 
provides for the transfer of permits without further environmental 
analysis when terms and conditions are unchanged, but only for the 
remaining term of the permit.
    The Department supports the concept of having the flexibility to 
issue longer term permits in certain circumstances, as well as the 
transfer provision that is currently in place under the FY 2012 
Consolidated Appropriations Act. That provision is expected to reduce 
the permit renewal workload in 2013 by about 700 permits. The number of 
transfers needing processing each year is unpredictable, posing 
significant challenges to the BLM as it works to manage staff and other 
resources.
    However, H.R. 4234 also includes provisions that the Department 
cannot support since they provide for automatic permit or lease renewal 
without requiring further analysis, or requiring the permittee to meet 
land health standards. The bill also limits the BLM's ability to 
provide for appropriate environmental review and public involvement. As 
written the bill would result in the majority of permits being renewed 
under a categorical exclusion, although it is unclear what constitutes 
a ``minor modification'' and whether extraordinary circumstances would 
need to be applied in situations where current management was being 
continued. Also under H.R. 4234, all crossing and trailing permits 
would be categorically excluded from analysis under NEPA. The 
engagement of the public through the environmental review process under 
NEPA is a crucial component of the BLM's multiple-use management of the 
public lands.
    Further, H.R. 4234 requires that if a permittee appeals a grazing 
permit or lease decision, the BLM must suspend the decision until the 
appeal is resolved. Under current regulations, a typical BLM grazing 
decision is implemented while under appeal unless the permittee or 
interested public requests, and the Interior Board of Land Appeals 
grants a stay of the decision. By contrast, under H.R. 4234, if a 
permittee appealed a grazing decision, the BLM could not implement the 
decision unless it determined there was an emergency regarding 
deterioration of resources. Otherwise, the permittee could continue 
grazing at the current level of use until the appeal was resolved. The 
provisions would effectively give a permittee, by the simple act of 
appealing any grazing decision, the ability to continue current levels 
of use for an indefinite period of time (since appeals and litigation 
may take years). Moreover, grazing at the current level could continue 
even if the BLM determined land health standards were not being met and 
changes to the permit were thus warranted.
    In summary, while H.R. 4234 contains provisions that would expedite 
permitting, the Department cannot support the overarching impact the 
bill could have on the 160 million acres of public lands used for 
livestock grazing.
Conclusion
    Thank you for the opportunity to present testimony on H.R.4234. The 
BLM looks forward to working with the Congress to develop improvements 
to the grazing permit renewal process while maintaining the integrity 
of NEPA, the Nation's bedrock environmental and citizen involvement 
law, and FLPMA, our multiple-use statute requiring consideration of 
many uses and values of the public lands. I will be pleased to answer 
any questions.
                                 ______
                                 
    Mr. Bishop. Thank you.
    Ms. Richards?

STATEMENT OF BRENDA RICHARDS, SECRETARY/TREASURER, PUBLIC LANDS 
                            COUNCIL

    Ms. Richards. Chairman Bishop, Ranking Member Lujan, and 
Members of the Subcommittee, thank you for inviting me to 
testify today on H.R. 4234, the Grazing Improvement Act of 
2012.
    My name is Brenda Richards, and I am a rancher from Owyhee 
County, where my husband and I, along with our three sons, run 
a cow/calf operation on private and public lands. I am the 
Secretary/Treasurer of the Public Lands Council, and am today 
also representing the National Cattlemen's Beef Association and 
the Idaho Cattle Association.
    Livestock grazing represents the earliest use of public 
lands as our Nation expanded westward. Today it continues to be 
essential for the livestock industry, wildlife habitat, open 
space, and the rural economies of the West. The changes 
provided by the Grazing Improvement Act are necessary steps in 
restoring a stable business environment for our industry.
    By allowing for grazing permit renewals despite agency 
paperwork backlogs, extending the life of grazing permits, and 
providing greater certainty to ranchers in the appeals process, 
this bill will provide environmental, economic, and government 
cost-saving benefits.
    It is difficult to quantify the importance of stability for 
public lands grazing to our family business, rural economies, 
and to the industry as a whole. But I can speak to you from 
personal experience about the effect the current instability 
has had in Owyhee County.
    Seventy-eight percent of our land mass in this county is 
Federally owned, resulting in a large number of permittees 
whose base property depends upon this Federal land for roughly 
85 percent of their forage during the spring and summer months. 
Agency backlogs and litigation plaguing the grazing permit 
renewal process put a tremendous burden on the agency, the 
permittees, and our local county government.
    American taxpayers have been negatively affected by 
frivolous appeals and challenges by extreme anti-grazing 
groups. The vicious cycle starts with the agency facing a 
tremendous workload of overly burdensome NEPA analysis and 
other regulations, often causing them to miss deadlines.
    Extreme anti-grazing groups wait in the wings to file suit 
on these missed deadlines, which is a procedural aspect, rather 
than relating to the actual health of the resource. This adds 
to agency workloads, which continues the cycle of more missed 
deadlines and backlog. The result for the permittee without 
this bill would be delay in the renewal process, which creates 
tremendous economic uncertainty.
    Grazing as we know it today is important not just for 
ranching families and local economies. All but the most extreme 
opponents of public land grazing acknowledge that its 
continuation is essential to maintaining the integrity of 
landscapes in the West.
    Stability of permit renewal process keeps private lands 
economically viable as ranching units, which in turn prevents 
the fragmentation of open space. And additional benefits of 
grazing include reduced fuel loads, preventing wildfire, 
control of noxious weeds, and improved forage growth.
    For these reasons, passing of the Grazing Improvement Act 
is crucial. It would offer flexibility to the agencies while 
providing stability to the industry by codifying the language 
we all hold our collective breath for every year in the 
appropriations process.
    Thankfully, for more than a decade, Democrats and 
Republicans alike in Congress have passed an appropriations 
rider that has allowed for the renewal of grazing permits 
despite the backlog of NEPA analysis. Codifying this rider is 
fundamental to the Grazing Improvement Act.
    The bill would also extend the life of grazing permits from 
10 to 20 years, further relieving the backlog and allowing for 
longer, more beneficial grazing plans. The bill ensures that 
agencies will still be able to make annual management 
adjustments where and when needed.
    The Grazing Improvement Act will further assure this 
stability by requiring that appeals of grazing permit decisions 
be conducted on the record in accordance with the principles of 
the Administrative Procedures Act. This provision is critical 
as applied to the Forest Service, where administrative appeals 
are heard not by an independent body but by the next level line 
officer.
    The BLM appeals system is not perfect. While the current 
system puts the costly and daunting burden of proof on the 
appellant, adherence to the Administrative Procedures Act would 
properly place the burden of proof on the agency to show its 
decisions are correct in law and fact.
    And finally, the bill provides a stay of decision pending 
appeal, a provision that would prevent ranchers from being 
forced out of business while administrative challenges wind 
their way through the administrative or court system. The 
language makes an exception to the stay where it would result 
in an immediate deterioration of the resource.
    Ranching is a career we have chosen. We do it because of 
our dedication, our knowledge, and the ability to manage the 
resource, the health of which assures the success of our 
business. Passage of the Grazing Improvement Act is important 
for future generations. This bill will stimulate rural 
economies and job growth, save taxpayer dollars, and ensure 
that the natural resources of the West continue under the 
careful stewardship of ranching families.
    Again, I would like to thank you for the opportunity to 
testify today, and I look forward to your questions.
    [The prepared statement of Ms. Richards follows:]

Statement of Brenda Richards, Secretary/Treasurer, Public Lands Council 
 on H.R. 1234, To Amend the Federal Land Policy and Management Act of 
 1976 to Improve the Management of Grazing Leases and Permits, and for 
                             Other Purposes

    Chairman Bishop, Ranking Member Grijalva and Members of the 
Subcommittee:
    I am Brenda Richards, Secretary/Treasurer of the Public Lands 
Council, the only National organization dedicated solely to 
representing public land ranchers. I am a cattle rancher actively 
involved in the family business with my husband and our three sons, who 
are fifth generation in the ranching industry. I appreciate the 
opportunity to appear before you today to share the western livestock 
industry's strong support for H.R. 4234, the ``Grazing Improvement Act 
of 2012''.
    Today I am representing the Public Lands Council, National 
Cattlemen's Beef Association and the Idaho Cattle Association. 
Affiliates of PLC include not only NCBA but also the American Sheep 
Industry Association (ASI), the Association of National Grasslands 
(ANG) and sheep and cattle organizations from thirteen western states.
    Livestock grazing represents the earliest use of federally managed 
lands (public lands) as our nation expanded westward. Today it 
continues to represent a multiple use that is essential to the 
livestock industry, wildlife habitat, open space and the rural 
economies of many western communities. While grazing was historically 
viewed only as a ``use'' of the public lands, today it has also come to 
be recognized as an important ``tool'' for the management of these 
lands.
    The public land livestock industry seeks and supports the essential 
legislative changes provided by H.R. 4234, as they are essential steps 
in restoring a stable business environment to our industry. By allowing 
for grazing permit renewals despite agency paperwork backlogs, 
extending the life of grazing permits, and providing greater certainty 
to ranchers in the appeals process, H.R. 4234 will provide 
environmental, economic, and government cost-saving benefits.
Environmental Benefits of a Stable Public Lands Grazing Industry
    Greater business stability leads to grazing practices that better 
benefit the resources, allowing federal lands ranchers to think long-
term about the kind of land and resources they want to pass down to the 
next generation. This stability is also at the foundation of the 
evolving science of rangeland management. By implementing long-term 
plans, ranchers are able to bring about significant changes in forage 
composition, to the benefit of livestock and wildlife alike. 
Sophisticated analytical systems, such as the State and Transition 
Model (STM), which has been embraced in recent years by both BLM and 
Forest Service, allow livestock grazing to be utilized to bring about 
significant changes in forage composition over long periods of time. 
But without the assurance that they will be able to hold onto their 
permits, many ranchers are hesitant to make the commitment of resources 
it takes to implement such plans.
    Accompanying the recent advances in range science are the 
longstanding benefits of grazing, which will only be bolstered by 
better business certainty. Wildlife depend on the habitat and 
improvements provided by public land ranching. The improvements 
ranchers make to water sources--building, maintaining and protecting 
reservoirs and stock ponds, for example--can improve and, in some 
cases, create, wildlife habitats \1\. In the West, where productive, 
private lands are interspersed with large areas of arid, less desirable 
public lands, biodiversity of species depends greatly on ranchland. 
According to Rick Knight, a biology professor at Colorado State 
University, ranching on both public and private land ``has been found 
to support biodiversity that is of conservation concern'' because it 
``encompasses large amounts of land with low human densities, and 
because it alters native vegetation in modest ways.'' \2\ Knight also 
noted that other uses--such as outdoor recreation and residential use--
are not as conducive to the support of threatened or endangered 
species.
---------------------------------------------------------------------------
    \1\ http://cesantaclara.ucdavis.edu/files/33367.pdf
    \2\ ``Ranchers as a Keystone Species in a West that Works.'' 
Richard L. Knight. Rangelands Oct. 2007.
---------------------------------------------------------------------------
    Wild birds, animals and rodents seek out and thrive in the shelter 
provided by natural ranch features, like diverse plant cover and 
windbreaks, as opposed to row-to-row crops or bare landscapes. Many 
ranchers across the West are purposefully implementing grazing 
practices to improve habitat and help prevent the addition of species 
such as the Greater Sage-grouse to the Endangered Species List. 
According to the Natural Resources Conservation Service, in 2010 
ranchers had already employed practices to help save between 800 and 
1,000 grouse, and the efforts continue \3\. Well-managed grazing also 
reduces the risk of catastrophic wildfire and encourages healthy root 
systems and robust forage growth \4\. Large animals such as elk and 
deer are known to thrive in areas where cattle graze \5\.
---------------------------------------------------------------------------
    \3\ Natural Resources Conservation Service, USDA (2010). USDA 
Promotes Sage-Grouse Protection Efforts in the Western United States. 
Release No. 0630.10
    \4\ Natural Resources Conservation Service, USDA (2004). 
Environmental Benefits of Improved Grazing Management. Illini 
PastureNet Papers. Hendershot, R.
    \5\ Texas A&M University-Kingsville (2005). Cattle Management to 
Enhance Wildlife Habitat in South Texas. Wildlife Management Bulletin 
of the Caesar Kleberg Wildlife Research Institute, Management Bulletin 
No. 6, 2005.
---------------------------------------------------------------------------
    Other research suggests that livestock grazing helps prevent 
invasion by non-native grasses, which threaten plant biodiversity on 
the land.\6\ Ranchers' brush control also benefits wildlife, helping 
more grass take root and decreasing the spread of cheatgrass, a highly 
flammable invasive weed. A study in the Journal of Rangeland Management 
concluded that ``from an ecological standpoint we can argue that if we 
remove the grazing infrastructure from public rangelands, we would see 
some adverse consequences. We'd see less variety and too much ground 
cover, for example, as well as more cheatgrass and the potential for 
more range fires.'' \7\
---------------------------------------------------------------------------
    \6\ Ranching as a Conservation Strategy: Can Old Ranchers Save the 
New West? Mark W. Brunson and Lynn Huntsinger. Rangeland Ecology 
Management 61:127-147 March 2008.
    \7\ ``Vegetation Change after 65 Years of Grazing and Grazing 
Exclusion.'' Barry Perryman. Journal of Rangeland Management Dec. 2004.
---------------------------------------------------------------------------
    A study by Mark W. Brunson and Lynn Huntsinger published in the 
journal Rangeland Ecology Management explained that ``Saving ranches 
has become a focus not only of rural traditionalists and livestock 
producers but also of conservationists, who prefer ranching as a land 
use over exurban subdivisions.'' \8\
---------------------------------------------------------------------------
    \8\ Ranching as a Conservation Strategy: Can Old Ranchers Save the 
New West? Mark W. Brunson and Lynn Huntsinger. Rangeland Ecology 
Management 61:127-147 March 2008.
---------------------------------------------------------------------------
Economic Benefits of a Stable Public Lands Grazing Industry
    Meanwhile, countless communities across the West depend upon the 
continued existence of the public land rancher. In my own county of 
Owyhee, 87 percent of the land is publicly owned, and our ranchers' 
dependency on public land forage during the spring and fall is about 85 
percent \9\. A 1992 Census of Agriculture for two Idaho counties 
revealed that two out of three commercially viable ranches held federal 
grazing permits \10\. I know that many communities across the West, 
where public lands account for roughly half of the landmass, depend 
just as we do on the tax base, commerce, and jobs created by the public 
land grazing industry.
---------------------------------------------------------------------------
    \9\ Rimbey et al., Ranch-Level Economic Impacts of Grazing Policy 
Changes: A Case Study from Owyhee County, Idaho, in CURRENT ISSUES IN 
RANGELAND RESOURCE ECONOMICS: PROCEEDINGS OF A SYMPOSIUM SPONSORED BY 
WESTERN COORDINATING COMMITTEE 55 (WCC-55), L. Allen Torell, E. Tom 
Bartlett, and Rena Larranga (eds.), New Mexico Ag Exp. Station Research 
Report 737, available at http:agecon.lib.unm.edu.
    \10\ Harp et al., Spatial Distribution of Economic Change From 
Idaho Ranches, 53 J. RANGE MGMT. 164, 165 (2000).
---------------------------------------------------------------------------
    Indeed, the national-level statistics give light to the importance 
of public lands grazing. The latest available data show that there were 
over 8.7 million animal unit months (AUMs) of grazing authorized on BLM 
lands in fiscal year (FY) 2010. This grazing was administered through 
17,740 permits and leases.\11\ The Forest Service in the fifteen 
western states permitted 6.1 million AUMs on National Forests and an 
additional 2.2 million of National Grasslands.\12\ While false data is 
often cited showing the relatively small amount of beef or lamb that is 
produced on public lands, such statements ignore the importance of 
these lands in an integrated ranching operation. Approximately 40% of 
beef cattle in the West and half of the nation's sheep spend some time 
on federal lands. Without public land grazing, grazing use of 
significant portions of state and private lands would necessarily 
cease, and the cattle and sheep industries would be dramatically 
downsized, threatening infrastructure and the entire market structure.
---------------------------------------------------------------------------
    \11\ Fact Sheet on BLM Management of Livestock Grazing, September 
2011, Table 3-8c, Table 3-9c. Fiscal Year 2010-
    \12\ USDA--Forest Service, Annual Grazing Statistical Report, 
Grazing Season 2009
---------------------------------------------------------------------------
Challenges to the Industry
    Despite the broadening acclaim for public lands livestock grazing's 
environmental and economic benefits, today's public land livestock 
industry faces challenges unlike ever before, making the aforementioned 
goals of a stable business environment and long-term grazing plans 
increasingly difficult to achieve. Private ranchland values in the west 
have skyrocketed based on competing uses--primarily rural subdivision 
development. Increasing land values render the estate tax--from which 
we have failed to secure permanent relief--a bigger threat than ever, 
making succession planning an ominous prospect for future generations 
of ranching families. Enhanced livestock genetics and current market 
prices for sheep and cattle have combined with the rising land prices 
to dramatically increase the need for operating capital--and at the 
same time, agricultural lenders are demanding greater long-term 
certainty in livestock operations. Burgeoning government regulation and 
the resulting litigation demand ever-greater investment of both 
financial and human resources. Extreme, predatory ``environmental'' 
groups wage a constant, partly taxpayer-funded war against public lands 
grazing \13\. Altogether, these and other factors create a business 
environment that is less certain than ever.
---------------------------------------------------------------------------
    \13\ Budd Falen, K. (2005). Environmental Organization's use of 
NEPA to Eliminate Land Use and Obtain Attorneys' Fees Under the EAJA. 
Legal Memorandum, November, 2005.
---------------------------------------------------------------------------
    Adding to the uncertainty is the changed nature of the grazing 
permit renewal process. In the 1960s, renewal of term grazing permits 
every ten years on both BLM and National Forests was little more than 
an administrative exercise. The permit renewal routinely arrived in the 
mail it was signed and returned to the agency for final execution, 
completing the renewal process. Any on-the-ground issues regarding 
management were addressed during the many opportunities that the agency 
range personnel and I had to spend time together in the field.
    Today, permit renewals are subject to compatibility with a Resource 
Management Plan or Land Use Plan, prior environmental analysis under 
the National Environmental Protection Act (NEPA), a potential need for 
consultation under Section 7 of the Endangered Species Act and the 
likely appeal by an anti-grazing organization that has been granted 
``interested public'' status by the agency and standing by the courts. 
The opportunities that our members once appreciated to spend time in 
the field with range personnel have become scarce as agency personnel 
are inundated by process, Freedom of Information Act requests and 
endless appeals. The NEPA analysis now deemed necessary is seldom 
completed in a timely manner. As a result, the public land rancher has, 
for the past ten years, been at the mercy of the annual congressional 
appropriations rider to allow permits to be renewed in a timely manner. 
H.R. 4234 would alleviate this annual cliffhanger, codifying language 
that has been approved annually by Congress for over a decade.
Challenges Facing the Federal Land Management Agencies
    As noted above, new regulations and resulting litigation have added 
dramatically to agency workloads. Over the past decade, the agencies 
have operated under pressure to produce environmental analyses on 
permit renewals either under a schedule imposed by Congress, or under 
self-imposed schedules. These timelines have seldom been met. The 
current NEPA backlogs for grazing allotments impacting permit renewals 
are 4,200 and 2,700 for the BLM and Forest Service respectively, with 
no end in sight. Time pressures have led to NEPA analysis that is 
frequently either substantively or procedurally inadequate and is 
therefore subject to successful administrative and judicial challenge. 
Reducing the requirement for perfunctory environmental analysis, as 
H.R. 4234 proposes to do, would enable the agencies to be more thorough 
when analyzing actions that actually impact the resource. It would also 
help reduce the opportunity for litigation by extreme anti-grazing 
groups who, by virtue of fee-shifting statutes such as the Equal Access 
to Justice Act, have made a cottage industry out of process-based 
litigation, draining agency budgets and reaping taxpayer dollars to the 
tune of millions, annually.
H.R. 4234 Offers Solutions
    As noted above, proper range management, economic certainty at the 
individual, community, and west-wide levels, land management agency 
workloads, and taxpayers would all benefit from a longer-term approach 
to the permitting of public lands grazing. H.R. 4234 takes a sizeable 
step in that direction.
    Section 2 of the bill extends the life of grazing permits from 10 
to 20 years. This critical change will bring needed certainty, improved 
range management and greater agency efficiency. In the context of this 
change to a 20 year permit, it is important to note that the ability of 
the agency to make needed management adjustments through the annual 
authorization to graze (BLM) or annual operating plan (Forest Service) 
is not diminished. In addition, the agencies retain the authority to 
issue shorter term permits under special conditions. Lengthening term 
grazing permits from 10 to 20 years provides more certainty to 
permittees and reduces process burdens on the land management agencies, 
all while retaining current standards for adjusting on-the-ground 
practices.
    Section 3: As referenced above, federal lands ranchers have relied 
for more than a decade on language being included into annual 
appropriations bills to allow the agencies to renew grazing permits on 
federal lands under current terms and conditions until the renewal 
process is complete. H.R. 4234 would codify that language. The bill 
recognizes that the renewal, reissuance or transfer of a permit does 
not, per se, have a resource impact so long as there is no significant 
change in the grazing management. By categorically excluding these 
actions from the requirement to prepare an environmental analysis, this 
section restores the role of environmental analysis to its proper 
function--an analysis of the potential impacts of a commitment of 
resources (changes to an RMP or Forest Plan) or a new on-the-ground 
activity. This section also takes a practical approach by properly 
acknowledging that minor modifications to renewed, reissued or 
transferred permits are acceptable, so long as they do not interfere 
with the achievement of or progress toward land and resource management 
plan objectives, and so long as extraordinary circumstances do not 
indicate a need for further analysis. Additionally, in order to solve a 
problem with crossing permits we have seen in my home state of Idaho, 
H.R. 4234 would correctly exclude the issuance of crossing and trailing 
permits from NEPA analysis. There is no need for endless analysis of an 
activity with minimal impact which takes place in an effort to comply 
with the terms and conditions of underlying term grazing permits.
    Taken together, Sections 2 and 3 represent a major step toward 
returning the focus of public land grazing to on-the-ground activities 
including management plans and range improvements. The resource, the 
land management agencies and the grazing permittees all stand to 
benefit from these adjustments. Entities that oppose these commonsense 
provisions show their true intensions: removal of all livestock from 
public lands with no real interest in the natural resources.
    Section 4 of H.R. 4234 will further assure the stability of 
individual ranching operations by requiring that all appeals of grazing 
permit decisions be conducted ``on the record,'' in accordance with the 
fundamental principles of the Administrative Procedures Act (APA). This 
provision is particularly critical as applied to the Forest Service. 
The Forest Service currently lacks an independent body to hear 
administrative appeals similar to the Interior Board of Land Appeals 
(IBLA), which adjudicates BLM appeals. As a result, permit appeals 
within the Forest Service are decided by the next level line officer. 
Most often, the deciding officer is the immediate supervisor of the 
author of the decision being appealed. It is understandable that 
research shows 85 percent of appeals under this structure are upheld. 
Frankly, an administrative appeal of a Forest Service permit decision 
is little more than a necessary procedural step to set the stage for a 
judicial appeal.
    While BLM appeals are conducted through a less prejudiced system, 
these permittee appeals nevertheless place a tremendous burden on the 
appellant. Strict adherence to the APA will properly place the burden 
of proof on both federal agencies to show that their decisions are 
correct in law and in fact. Because there is no current provision for a 
stay of a decision pending appeal, the permittee can be faced with 
making significant and costly adjustments to his ranching operation 
based on a decision that may be overturned through the administrative 
appeal. By then, the rancher may well be out of business. Section 4 
will assure that the decision is suspended and that current grazing is 
allowed to continue until the appeal is resolved. Permittees should not 
be negatively affected by frivolous appeals and challenges while an 
administrative challenge winds its way through the system. There is, 
appropriately, an exception where failure to implement the decision 
would result in an immediate deterioration of the resource.
Conclusion
    All but the most extreme opponents of public lands grazing 
acknowledge that the continuation of grazing on public lands is 
essential to maintaining the integrity of landscapes in the West. Given 
the mosaic pattern of land ownership in most public land areas, a 
majority of ranches in these areas are not economically viable ranching 
operations without access to forage on public lands. These associated 
intermingled private lands will often readily find a market as rural 
subdivisions and other non-agricultural uses. The resulting land 
fragmentation equates to a loss of wildlife habitat, open space and 
scenic vistas, and public access. This can diminish the value of the 
public lands themselves for recreational use. Keeping ranchers in 
business is good policy for conservation of both private and public 
land.
    Most public land ranchers do not want to develop their private 
lands. It is not in the public interest to drive them to do so by 
increasing the uncertainly that they face in continuing public lands 
ranching. Over the past 10 years, many states have seen an increase in 
the use of conservation easements. The primary reason for doing so is 
to provide another tool to keep private ranchlands in ranching. 
However, as we visit with public land ranchers, we often hear, ``I 
would be very interested in placing an easement on my private land if 
my grazing permit were more secure. If I lose the permit, I will have 
little choice but to subdivide my land.''
    There are certain times when small steps can produce large results. 
In H.R. 4234, Congressman Labrador takes those small steps. The results 
will include greater stability for the livestock industry, a renewed 
focus on long-term resource management, enhanced agency efficiency and 
flexibility, and continuation of the broad public benefits provided by 
both public and private lands in the West. On behalf of the Public 
Lands Council and its affiliates and, most significantly, the over 
22,000 families dependent on public land grazing, I urge your support 
for this legislation.
    Thank you for the opportunity to testify before the Committee 
today.
                                 ______
                                 
    Mr. Bishop. Thank you for your testimony.
    We will now turn to questions. Mr. Labrador, if you would 
like to go first, ask any of the witnesses questions.
    Mr. Labrador. Ms. Weldon, thank you for being here today. 
Last week the Forest Service testified about concern with the 
appeals provisions of this bill. There are obvious problems 
with the current system, where appeals are handled by the next 
employee up the chain. What would you prefer the appeals 
process to be for the agency?
    Ms. Weldon. Thank you for your question. We are in the 
process, the Forest Service, in revising our appeals process 
for uses of the National Forests, including grazing and other 
special uses, and our objective there is, rather than having a 
three-level process, to shorten that to two to emphasize 
keeping the decision-making as close to the ground as we 
possibly can. We feel that will save time and hopefully put us 
in more of a collaborative mode for problem-solving with 
appeals that we do receive for special uses.
    Mr. Labrador. Thank you. The annual appropriations language 
rider effectively requires the renewal of permits in spite of 
the NEPA backlog. Why is the Forest Service opposed to grazing 
permits continuing under the same terms and conditions through 
automatic categorical exclusions, when under the grazing rider, 
the same flexibility and practice exists today?
    Ms. Weldon. Thank you. We are not opposed to use of 
categorical exclusions. We would rather be able to describe 
specifically those conditions under which it fits. Our concern 
is that if we forego--rather, if we use categorical exclusions 
for everything, we may miss the opportunity or the need to have 
more extensive analysis done based on changed conditions that 
may be occurring on certain allotments. So having that 
flexibility helps.
    So we are not opposed. We just want to be able to define 
the conditions under which it makes the most sense.
    Mr. Labrador. OK. Mr. Pool, why specifically is the 
Department opposed to legislation that provides flexibility and 
efficiency to administering the grazing program?
    Mr. Pool. Thank you, Congressman. And I just want to share 
my thoughts. I share a lot of the concerns that Ms. Richards 
expressed.
    Being a New Mexico native, growing up in a farming and 
ranching community, and having working with this issue in four 
different States, it has created a tremendous amount of 
administrative burden on BLM. And it has also created a lot of 
issues for our permittees.
    During the course of the last 13 years when we were 
basically directed by the Interior Board of Land Appeals to use 
a NEPA interdisciplinary analysis with full public involvement, 
we have processed over 30,000 grazing permit renewals in a 13-
year period. And of the 30,000, only 2.5 percent of that amount 
has been appealed through IBLA.
    A high majority of those actions have occurred in your home 
State, including Utah and other Western States. But we have 
discovered over time that the majority of these allotments that 
have a variety of resource attributes--in some cases we deal 
with invasives; we deal with past fire activity; we have to 
accommodate forage for wildlife, in some cases wild horses, 
including cattle--that it is the NEPA process and the 
interdisciplinary process and the range of alternatives in 
allowing affected or interested parties to participate that we 
think helps us sustain these decisions over the long term, both 
in terms of any actions that are appealed before IBLA and also 
our attempts to sustain our decisions before the Federal Court.
    Mr. Labrador. Thank you. Ms. Richards, why is it important 
to extend the grazing permits from 10 to 20 years?
    Ms. Richards. Thank you, Congressman. Any of us that work 
on the resource, on the land, know that there is no long-term 
fix if you are looking to have an upward trend or improvements. 
A lot of times this would allow anything that we are moving 
forward with.
    It would allow the stability, the continuity, and it also 
allows the permittees to do a cost-share project, which if the 
uncertainty is there, a lot of times you are not willing to or 
you cannot get financing for a cost-share project on the long 
term.
    Mr. Labrador. Let's talk about that uncertainty. Does the 
uncertainty of the permitting process negatively affect the 
value of your operation? And how has your operation been 
affected by the NEPA backlog?
    Ms. Richards. Thank you, Congressman. It certainly affects 
the stability of our operation. As you heard in my testimony, 
your base property relies so heavily on spring and summer 
forage that you have a permit that you hold for. If you go in 
for your budgets for those years, an uncertainty of a permit 
renewal is a huge financial burden on the permittee because of 
the fact that it is a large part of our operation.
    So we take that into consideration, and we definitely have 
to be honest with our lenders. In our local communities, our 
county government, it affects the local budgets. So the 
uncertainty definitely has an effect overall. And also, the 
certainty of that keeps our ranches whole and our communities 
whole.
    Mr. Labrador. Thank you.
    Mr. Bishop. Thank you.
    Mr. Lujan, do you have questions?
    Mr. Lujan. Mr. Chairman, thank you very much.
    Mr. Pool and Ms. Weldon, it is a pleasure to have you both 
here with us as well. As we talk about this legislation, it 
provides for 20-year permits by replacing 10-year permits with 
20-year permits, as was just discussed, in an amendment to the 
Federal Land Policy and Management Act.
    Would saying ``up to 20 years'' accomplish the same 
objective, while providing the agencies more flexibility over 
permits in sensitive areas, as we talk about sensitive 
watersheds as well? Mr. Pool?
    Mr. Pool. Yes. We would like to continue to work with the 
Committee on the 20-year option. We think that that would fit 
certain allotments, certain categories of allotments, where we 
have a lower degree of conflict. In some cases, for example, we 
do not have candidate species. We do not have species of 
concern. We do not have listed species, which basically 
elevates these type renewals to a high-level NEPA analysis.
    But for those allotments that we have throughout the West 
where we have not had that degree of complexity or those 
challenges, we think that the 20-year extension would be of 
some utility to us.
    Mr. Lujan. Appreciate that.
    Deputy Chief Weldon?
    Ms. Weldon. Thank you, Congressman. Along the same lines, 
we are supportive of the stability that a 20-year permit would 
bring, in particular where these permits are meeting Forest 
Plan standards. So over a 20-year period, our engagement would 
be through the permit, and monitoring and ensuring that we are 
meeting those environmental standards, working in partnership 
with the permittee.
    If during that time period we encounter areas where we may 
need to have change, then we would work with the permittee to 
fully evaluate those and severe whether those would require 
change or continue to support the permit as is.
    Mr. Lujan. And, Ms. Richards, if that would not add to the 
backlog--I mean, I appreciate very much what our colleague Mr. 
Labrador is doing here. If that would not add to the backlog, 
is that something that you could take a look and see if, based 
on criteria of opening this up for up to 20 years, that that 
may be something that you could consider?
    Ms. Richards. We definitely believe that this bill allows 
the flexibility to the agencies for implementation of those 
type of aspects. One of the things that we also feel is there 
are already mechanisms in place to allow--if you cannot go that 
far, there are mechanisms in place that allows the agencies to 
do what is needed for the resource.
    So the flexibility within this, or the 10 to 20 years, we 
definitely feel that it is supported and it is a good thing 
because the mechanisms are already there for any actions that 
would need to be taken on the ground.
    Mr. Lujan. And in this particular area, Mr. Chairman, and 
too many colleague Mr. Labrador, I think that if we are able to 
work together, there may be a way to pull a lot more support--
although I know how to count, Mr. Chairman, and that is 
something that I appreciate, that lesson early on in life from 
my father--but as we are able to try to navigate this policy so 
that we are able to work with our colleagues in the Senate, try 
to get this to the President's desk so that way we can make 
sure that we have a win for people all around the country, it 
is something that I know I would be interested in.
    Along those lines, Mr. Labrador, I know that we are always 
bragging about New Mexico beef. And I do not want to even ask 
Ms. Richards about how that compares to Idaho beef. But maybe 
there is a way for us to work together. And I have been talking 
about trying to brag on New Mexico beef in front of the 
Committee here.
    Maybe we can work together and get some of that, a little 
burger cookoff, if you will, although I will suggest we have a 
little bit of advantage now that we have the largest cheese 
plant in the country in my district as well. So I know that 
that is a little sore subject with our friends from Idaho. But 
we also have the competitive advantage of green chili from New 
Mexico. So we will chat about that.
    [Laughter.]
    Mr. Lujan. But just real quick, with Deputy Chief Weldon--I 
appreciate the indulgence of the Chairman here--Ms. Weldon, one 
other area that I want to ask for your consideration, and we 
can follow up with this: As related to the previous 
legislation, you heard me describing the importance of our 
acequias, these irrigation systems that pre-date the U.S. 
Forest Service.
    And it is an invitation that I extended to Ms. Sutley, and 
it is one that I would extend to you and to your team, to get 
you to New Mexico so maybe we can walk some of these beautiful 
areas together and get a deeper understanding, when we talk 
about land management and what it means, where our allottees 
are working with the conservationists, with the environmental 
associations, with the acequia associations, how we can come 
together. And it is in our best interest to be able to handle 
that together.
    And last, Deputy Chief, there were some decisions made in 
the Northern part of New Mexico where we had some concerns that 
we raised about how allotments were reduced. And we would just 
encourage that we are able to work together, that we are able 
to use sound science and data to make those decisions. And we 
will follow up with you on that as well.
    But thank you both for being here very much. Thank you, Mr. 
Chairman.
    Mr. Bishop. To you for the questions. New Mexico wolf 
tastes very tasty, as well.
    [Laughter.]
    Mr. Labrador. Mr. Chairman, he is going to need one of our 
potatoes, which is almost as big as his cattle.
    [Laughter.]
    Mr. Lujan. I appreciate that, Mr. Chairman.
    Mr. Bishop. And as long as you can all count up to 20, we 
will be OK with this bill.
    Mr. Kildee, do you have any questions?
    Mr. Kildee. No, Mr. Chairman. I appreciate the clarity of 
the presentations, and any questions I may have asked have been 
presented very well in the presentation itself. Thank you.
    Mr. Bishop. Thank you. I do have a couple of questions. Ms. 
Richards, if I could start with you.
    In the President's budget proposal, there is a $1 increase 
per AUM for all BLM permittees. It is not on the AUM cost; it 
is simply an administrative cost that allegedly can be added to 
it. That would impact about a 70 to 75 percent increase on what 
you would have to pay for a grazing fee. What impact would that 
have on your operations and others?
    Ms. Richards. Thank you, Congressman, for asking about 
that. As you just indicated, that is a 74 percent increase on a 
small business. We are small, family owned businesses, and this 
would have a devastating effect. Any time you have that 
significant of an increase on your business, it is very hard to 
withstand.
    We hold these permits with our base property, and they are 
a definite part of it. We are taxed on them when we die. So it 
definitely is considered a small business. This increase also 
does not directly go back into the BLM range program. It goes 
into the administrative--wherever the Administration directs 
it.
    So there is no guarantee that it goes on the ground or into 
the range program, and that is of a tremendous concern to us, 
especially that we are the ones that will be brunting that 74 
percent increase. Our industry opposes, adamantly opposes, 
this. We feel that it is somewhat of a misguided idea, and we 
would urge Congress to put it aside.
    Mr. Bishop. Thank you.
    Mr. Pool, when you go back to your superiors there, when 
the Secretary was here, we asked specifically for the statutory 
authority for this $1 administrative fee. We have yet to have 
that input from it. We would ask you once again if the agency 
could tell us specifically where they claim that kind of 
statutory authority for simply an administrative increase to 
what is established by statute as the cost per AUM.
    Ms. Richards, if I could ask you one other question as 
well: If you would elaborate just for a second of how grazing 
could be a useful and a very productive tool to help manage 
wildlife, especially things like the sage grouse habitat, which 
has the potential of destroying us sooner than the Mayan 
calendar can. If you would tell us about how that works, I 
would be appreciative.
    Ms. Richards. Thank you, Congressman. I am very lucky in 
our area to be able to have personal experience on how grazing 
works as a tool. We have numerous collaborative efforts through 
our local sage grouse working groups. We have a Natural 
Resources Committee that has been established by our County 
Commissioners. And through these aspects, we have developed 
what was determined to be potential sage grouse habitat into 
sage grouse habitat, completely keeping the multiple use there.
    And it is through these grazing efforts that we keep the 
noxious weeds down. We have worked on different fire control. 
And in our area, the Murphy Complex Fire was one of the most 
highly noted fires in the Western United States a couple years 
ago, and we have worked diligently on this, that if there had 
been the grazing increases that were there, the fuel loads 
would have been reduced.
    So grazing is definitely a tool, and I would like to 
indicate that it is properly managed grazing, which is what we 
advocate, and that that is a substantial tool not only for just 
the sage grouse but for all wildlife. And we also use that 
pretty much as----
    Mr. Bishop. Thank you. I appreciate that.
    Mr. Pool, this time I would ask for a response, if it is 
possible. Is the BLM, realizing what grazing can do for fire 
prevention in these habitat areas, and for invasive species in 
this habitat, is grazing looked at as a management tool by the 
BLM, and will it be part of your RMP process in the future?
    Mr. Pool. Yes, Mr. Chairman. We have always viewed grazing, 
for a number of years, as a management tool in managing and 
improving the quality of range lands across the West.
    Mr. Bishop. Thank you. I appreciate that. I do have a few 
other questions, but it is going to take a little bit more 
time.
    Mr. Labrador, are there other questions that you have for 
these witnesses? We will do a second round?
    Mr. Labrador. No, Mr. Chairman.
    Mr. Bishop. Mr. Lujan, do you have other questions for 
these guys?
    Mr. Lujan. No, Mr. Chairman. I would yield my time to you, 
sir.
    Mr. Bishop. That is good. I am still on my original five 
here.
    Mr. Kildee, do you have more questions?
    Mr. Kildee. No. I have no more questions.
    Mr. Bishop. Let me just ask, then, a couple here, and I 
appreciate that, and I will be done.
    Mr. Pool, has BLM been party to any settlement agreements 
regarding grazing permits, specifically subjecting permitting 
decisions to NEPA?
    Mr. Pool. To my knowledge, we have, as a result of 
litigation that has been filed. Oftentimes we will seek 
settlement. I cannot provide--I can later, but I do not have 
the specific cases with me.
    Mr. Bishop. You mentioned about 2.5 percent of the permits 
are appealed; you have to go through the process again. What 
percentage of that is driven by litigation from other groups?
    Mr. Pool. I do not have that information with me. We were 
trying to pull up that information yesterday so I could compare 
both. But a high number of our permits, particularly in the 
State of Idaho, do result in litigation.
    Mr. Bishop. Thank you. Ms. Weldon, could I ask the same 
thing? Of the backlog that you have for permittees, how much of 
that is driven by litigation?
    Ms. Weldon. We too do not have that precise info available 
that we can get for you. What I would say is that while we 
automatically reissue permits, we are experiencing a backlog 
with our allotments as far as a NEPA needs to be completed for 
those. And at this point, between now and the year 2019 with 
our rescission schedule, we need to complete approximately 3600 
additional allotments.
    Mr. Bishop. For the record, if you could look up--both of 
you--if you could give us that information of how much is 
driven by litigation aspects from certain special interest 
groups, I would be appreciative of it.
    Mr. Pool, how much in the last year or even the last five 
years or the last 10 years--I do want this eventually provided 
on a year-by-year basis--has BLM paid out for any or all claims 
that are pursuant to the Equal Access to Justice Act? And how 
many of those were paid pursuant to the terms of the 2009 
settlement with the Western Watershed?
    Mr. Pool. I will have to provide that information.
    Mr. Bishop. All right. I would appreciate it once again 
because EAJA is a specific concern to all of us. That is part 
of the information I think is essential.
    Let me just conclude by a short rant here. To the agencies, 
one of the reasons why we are looking at legislation and it 
becomes important is we really do not want you to solve this 
issue by regulations. Part of the problem has been solved by 
abuse of the EAJA Act and agencies making outside agreements 
with certain special interest groups that, in my opinion, 
appear to be motivated as much by politics as by the ability of 
controlling and helping the land.
    There is a reason that Congress has done rider after rider 
after rider, and it has been a positive tool for the agencies 
to use. The categorical exclusions are a solution to a problem, 
and they need to be respected regardless of what kind of 
agreements are made outside of courts before a court actually 
has to make a decision on those.
    So that is one of the reasons why, in all due respect, we 
want legislation. I do not want to base it on regulation. I 
would appreciate, though, very much both of you mentioning how 
the 20-year concept would add stability and planning process, 
and that you do have tools that you could still manage; even if 
it was a 20-year process, you could still manage, review, and 
look at those permits as time goes on.
    So I thank you for that. I appreciate it. And if you could 
provide that information, I would be greatly appreciative, and 
then we will not be yelling at you as much, especially the 
statutory language for why you get to do an administrative fee 
on those poor grazers.
    And I think I get to yield the last minute I have to Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Mr. Pool, just real quickly, you have mentioned twice that 
there are more appeals in Idaho than any other State. Can you 
explain to us why?
    Mr. Pool. I cannot from the BLM perspective; we have always 
got the outside litigants that we have had to contend with. 
When Steve Ellis, the State Director, came into Idaho----
    Mr. Labrador. Make it quick. I only have one minute, 
because I want to ask one question of----
    Mr. Pool. I will just say including Idaho, as other parts 
of the West, in some areas we could have done a better job on 
our NEPA work. That is very clear. And whether we were remanded 
by IBLA, in some cases District Court, it was clear that we 
could have done a better job. So some of these cases was our 
failure to actually address quality NEPA in support of these 
renewals.
    Mr. Labrador. And just in Idaho.
    So Ms. Richards, why do you think that we have so many 
appeals in Idaho? And does it have anything to do with the fact 
that we have John Marvel in Idaho?
    Ms. Richards. That is a loaded question. There is 
definitely the litigation that we have in Idaho. There is a 
unique aspect. As you indicated, that extreme anti-grazing 
group did cut their teeth in my county. We had over a hundred 
permittees; 68 of those landed in court on one challenge. So 
there is a tremendous amount, and it was all--the basis came 
forward just all off of one case. All of those were in one 
case.
    So that is one of the reasons we would just hugely support 
and appreciate the movement of this bill. I think the backlog 
and the ability to get the stability to the industry would 
alleviate that process, both for us as permittees and also for 
the agencies.
    Mr. Labrador. Thank you. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you very much. I am appreciative of the 
testimony of this particular bill.
    Ms. Martin, we have been having you sit here by yourself 
for a while. Let's move to the bill so that you can actually 
have a chance to say something. This is H.R. 2984 by our friend 
from Maine. I do not know, Ms. Weldon, are you prepared to give 
testimony on this bill, 2984? This is Mr. Pool's bill.
    Mr. Pool, if you want go on H.R. 2984, and then we will 
turn to Ms. Martin on 2984, please.

    STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, BUREAU OF LAND 
   MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, ON H.R. 2984

    Mr. Pool. Will do. Thank you, Mr. Chairman.
    I am submitting testimony on behalf of the Department of 
the Interior today and the Fish and Wildlife Service on H.R. 
2984, the Maine Coastal Islands Wilderness Act of 2011. The 
Department supports passage of H.R. 2984, which designates 
specific lands within the Cross Island National Wildlife Refuge 
and the Petit Manan National Wildlife Refuge as wilderness.
    The 13 Maine Coastal islands proposed for designation as 
wilderness under H.R. 2984 are part of the Maine Coastal 
Islands National Wildlife Refuge complex, which is comprised of 
five individual refuges that span the Coast of Maine. The 
refuges support an incredible diversity of habitats including 
coastal islands, forested headlands, estuaries, and freshwater 
wetlands.
    There are no current human uses on these islands that would 
conflict with the wilderness area designation, and designation 
of these islands would not significantly impact any future 
wildlife management capability. The designation of wilderness 
under H.R. 2984 will preserve the scenic and wild nature of 
these islands, and fulfills the intent of the Wilderness Act.
    I am accompanied today by Jim Kurth--he is the Chief of the 
National Wildlife Refuge System within the Fish and Wildlife 
Service--who is available to answer any questions the 
Subcommittee may have on this particular bill.
    [The statement submitted for the record by the U.S. 
Department of the Interior on H.R. 2984 follows:]

   Statement submitted for the record by the U.S. Department of the 
Interior on H.R. 2984, The Maine Coastal Islands Wilderness Act of 2011

    Thank you for inviting the Department of the Interior to submit its 
views on H.R. 2984, the Maine Coastal Islands Wilderness Act of 2011. 
The Department supports H.R. 2984, which would designate specified 
lands in Maine within the Cross Island National Wildlife Refuge and 
within the Petit Manan National Wildlife Refuge as wilderness, and as 
components of the National Wilderness Preservation System (NWPS).
    The thirteen Maine coastal islands proposed for designation as 
wilderness under H.R. 2984 are part of the Maine Coastal Islands 
National Wildlife Refuge Complex, which is comprised of five individual 
refuges that span the coast of Maine. The five separate refuges are: 
Cross Island, Petit Manan, Seal Island, Franklin Island, and Pond 
Island national wildlife refuges. Each has separate establishment 
histories and refuge purposes, but collectively, they are managed as 
the Maine Coastal Islands National Wildlife Refuge Complex.
    The refuges support an incredible diversity of habitats, including 
coastal islands, forested headlands, estuaries, and freshwater 
wetlands. There are 56 islands in the refuge complex, many of which 
support habitat for colonial nesting birds, puffins, and eiders. The 13 
islands proposed for wilderness designation in H.R. 2984 are wild and 
relatively untouched by human activity. They are mostly forested and 
support mature spruce-fir forest, which provides nesting habitat for 
bald eagles and other species. These are gorgeous islands offshore, 
many with bold granite coasts and large trees dripping with lichens. 
These 13 islands are pristine with no roads or other structures like 
lighthouses or helicopter pads. These islands also provide rare 
opportunities for solitude and primitive recreation. Smaller islands 
closer to shore with little vegetation, especially those frequented by 
numbers of people, do not offer the same opportunities.
    The refuge complex's comprehensive conservation plan (CCP) was 
finalized in April 2005. The potential for wilderness designation was 
addressed in the CCP. There are no current human uses on these islands 
that would conflict with a wilderness area designation, and designation 
of these islands would not significantly impact any future wildlife 
management capability. A portion of Halifax Island, which is located 
within Petit Manan National Wildlife Refuge, is closed to the public 
due to rare plant management. A campsite used by kayakers from the 
Maine Island Trail Association, located on one end of the island, would 
not be impacted by a wilderness designation. On Bois Bubert Island, 
which is also located within Petit Manan National Wildlife Refuge, 
there are some private in-holdings with seasonal cabins that are 
specifically excluded from proposed wilderness designation referenced 
in H.R. 2984. Based on the public CCP process and subsequent meetings 
with the landowners, the Service does not anticipate any impacts to or 
opposition from these landowners. Commercial fishery and Atlantic 
salmon aquaculture concerns are addressed in this legislation by 
establishing the wilderness area boundary at the mean high water mark.
    The Department supports passage of this legislation, which will 
provide excellent opportunities for primitive recreation and solitude, 
and outdoor experiences, focused on wildlife-oriented activities. This 
designation will preserve the scenic and wild nature of these islands 
and fulfills the intent of the Wilderness Act.
                                 ______
                                 
    Mr. Bishop. Thank you very much.
    Ms. Martin, you have a full five minutes. They just started 
with voting, but we are going to get both of these bills in 
here. Please.

STATEMENT OF STEPHANIE L. MARTIN, PROGRAMS COORDINATOR, FRIENDS 
                   OF MAINE'S SEABIRD ISLANDS

    Ms. Martin. Thank you, Mr. Chairman and Ranking Member 
Lujan and the other Member of the Committee, for the 
opportunity to testify before you today. I am Stephanie Martin. 
I live in the coastal community of Rockport, Maine with my 
husband and my two children.
    I am here representing myself and the Friends of Maine's 
Seabird Islands, which is a nonprofit organization whose 
mission is to encourage conservation and the appreciation of 
seabirds, their nesting, and coastal habitats, as well as to 
support the Maine Coastal Islands National Wildlife Refuge.
    I joined the board of the Friends a year ago after 
relocating back to Maine. As a child growing up here, I had no 
idea of the resources and the beauty that existed off of the 
Maine Coast, nor did I know of the conservation efforts 
regarding seabirds. I joined the Friends group to help educate 
and share the story of seabird conservation, and to help 
protect these islands and thus the overall health of the Gulf 
of Maine ecosystem.
    I want to start by thanking Congressman Michaud for 
introducing, and Congresswoman Pingree for cosponsoring, H.R. 
2984. Maine citizens are very fortunate to have two 
representatives who understand not only the value that nature-
based tourism plays in our economy but who also treasure 
Maine's unmatchable natural beauty.
    The Maine Coastal Islands Wilderness bill will provide 
enduring protection for 13 of the Refuge's 56 islands. These 
rugged islands provide Maine residents and visitors an 
opportunity to experience solitude and primitive recreation. 
Coastal real estate is economically unattainable for most of us 
Mainers, and it is a comfort knowing that this legislation 
would forever protect the untamed beauty of places like Cross 
Island and Washington County.
    In addition to the wilderness recreation opportunities, 
these islands provide critical habitat to many species of 
wildlife and plants. Our Nation's symbol, the American bald 
eagle, nests on many of the islands, including Outer Heron and 
Little Marshall. Outer White and Johns Islands are frequented 
by harbor seals and are birthing and nursing sites for their 
pups. And then there are the seabirds, which are supported by 
the habitat on many of the islands, such as Old Man Island. 
Thousands of people come to Maine to see these beautiful 
seabirds annually.
    Additionally, Coastal Maine wilderness will continue to 
provide shelter for coastal wildlife and act as a living 
laboratory for important scientific research. It will also 
serve as a classroom for individuals and families in search of 
unique outdoor experiences, while finding the risks, rewards, 
and self-reliance found only in nature.
    I am here today because I want to protect the lands that 
are critical to scientific research for the health of the Gulf 
of Maine ecosystem. But also I want to set these islands aside 
to allow my daughters and grandchildren the opportunity to 
explore their personal values while experiencing the risks and 
rewards in nature.
    I am not alone in my support for wilderness protection of 
these islands. Over 600 Mainers submitted positive comments 
through emails, phone calls, and written testimony at the four 
public hearings when the U.S. Fish and Wildlife Service 
presented its draft conservation plan for the refuge, which did 
include the designation of wilderness for 13 of its islands.
    Additionally, over 100 mid-coast organizations, 
conservation groups, individuals, and businesses, including the 
Penobscot Bay Regional Chamber of Commerce and residents and 
businesses of Washington County, have signed this letter that I 
brought today requesting that Congress protect these islands. I 
ask that this letter be included in the official record.
    Many of you are probably familiar with the slogan on 
Maine's license plate, ``Vacationland.'' Wildlife watching and 
eco-tourism brings millions of dollars into Maine's economy 
annually, supporting guides and boats that bring people to 
these beautiful places, as well as hotels, restaurants, gas 
stations, and innumerable stores that serve them. Tourism is 
our economic engine, and wildlife and wilderness fuel that 
engine.
    A recent report for the Governor's Council on Maine's 
Quality of Place States that annual spending on wildlife 
watching in Maine alone totals $287 million. Aside from 
seasonal visitors, protected lands attract entrepreneurs, 
retirees, and second home residents, who bring disposable 
income and job opportunities that help support these local 
services.
    The Maine Coastal Islands Wilderness bill is a good thing 
for seabirds, recreationists, the tourism industry, and for our 
Nation. This legislation is appropriate congressional 
recognition regarding the importance of these wild islands and 
the entire Maine Coastal Islands National Wildlife Refuge to 
the people of Maine, to our economy, and to the countless 
wildlife and seabirds who depend on this important resource.
    In conclusion, the Friends of Maine's Seabird Islands urges 
you to support H.R. 2984 to protect these important and 
irreplaceable islands for our children and grandchildren to 
experience, just as we in previous generations have 
experienced. Thank you for the opportunity today.
    [The prepared statement of Ms. Martin follows:]

 Statement of Stephanie L. Martin, Friends of Maine's Seabird Islands, 
     on H.R. 2984, The Maine Coastal Islands Wilderness Act of 2011

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee, thank you for the opportunity to testify before the 
Subcommittee today. I am Stephanie Martin, and I live in the coastal 
community of Rockport, Maine, with my husband and my 5 and 2 year old 
daughters. I am here representing myself and the Friends of Maine's 
Seabird Islands, a non-profit organization whose mission is to 
encourage conservation and appreciation of seabirds, their nesting and 
coastal habitats, and to support the Maine Coastal Islands National 
Wildlife Refuge. I joined the Friends' Board of Directors 1 year ago 
after relocating back to the Maine coast. As a child growing up here I 
had no idea of the resources and beauty existing off the Maine coast, 
nor did I know about the conservation efforts regarding seabirds. I 
joined the Friend's group to help educate and share the story of 
seabird conservation and to help protect these islands, and thus the 
overall health of the Gulf of Maine.
    I am pleased to have this opportunity to speak to you today about 
the Maine Coastal Islands Wilderness Act. I want to start by thanking 
Congressman Michaud for introducing and Congresswoman Pingree for co-
sponsoring H.R. 2984. Maine's citizens are fortunate to have two 
representatives who understand not only the value that nature-based 
tourism plays in our economy, but whom also treasure Maine's 
unmatchable natural beauty.
    The Maine Coastal Islands Wilderness bill will provide enduring 
protection for 13 of the Refuge's 56 islands. These rugged islands 
provide Maine residents and visitors an opportunity to experience 
solitude and primitive recreation. Coastal real estate is economically 
unattainable for most of us Mainers and it is a comfort knowing that 
this legislation would forever protect the untamed beauty of places 
like Cross Island in Washington Country.
    In addition to the wilderness recreation opportunities, the islands 
provided critical habitat to many species of wildlife and plants. Our 
nation's symbol, the bald eagle, nests on many of the islands including 
Outer Heron and Little Marshall. Outer White and John's Island are 
frequented by harbor seals and are birthing and nursing sites for their 
pups. And then there are the seabirds which are supported by the 
habitat on many of the islands, such as Old Man Island. Thousands of 
people come to Maine to see these beautiful seabirds.
    Our National System of wild lands contributes significantly to the 
ecological, economic, and social health of our country, but this 
specific designation I am speaking of will support the economies of 
Maine's coastal communities by drawing in more individuals seeking the 
solitude these islands can provide.
    In addition, Coastal Maine Wilderness would continue to provide a 
shelter for coastal wildlife, act as a living laboratory for important 
scientific research, and serve as a classroom for individuals and 
families exploring personal values in search of a unique outdoor 
experience while experiencing the risks, rewards, and self-reliance 
found only in nature.
    I am here today because I want to protect the lands that are 
critical to scientific research for the health of the Gulf of Maine 
ecosystem, but also I want to set these islands aside to allow my 
daughters and grandchildren the opportunity to explore their personal 
values while experiencing the risks and rewards of nature.
    I am not alone in my support for wilderness protection of these 
islands: over 600 Mainers submitted positive comments through emails, 
phone calls, and written testimony at 4 public hearings when the U.S. 
Fish and Wildlife Service presented its draft conservation plan for the 
refuge which included the designation of wilderness for 13 of its 
islands. Additionally, 99 mid-coast organizations, conservation groups, 
individuals, and businesses, including the Penobscot Bay Regional 
Chamber of Commerce have signed this letter requesting Congress protect 
these islands and I ask that this letter be included in the official 
record.
    Many of you are probably familiar with the slogan on Maine's 
license plate ``Vacationland''. Wildlife watching and ecotourism brings 
millions of dollars into Maine's economy annually supporting guides and 
boats bringing people to these beautiful places, as well as hotels, 
restaurants, gas stations, and innumerable stores that serve them. 
Tourism is our economic engine and wildlife and wilderness fuel that 
engine.
    A recent report for the Governor's Council on Maine's Quality of 
Place states that annual spending on wildlife watching in Maine totals 
$287 million. Aside from seasonal visitors, protected lands attract 
entrepreneurs, retirees and second-home residents who bring disposable 
income and job opportunities and help support local services. An 
Outdoor Industry Foundation nationwide study found of seven major 
outdoor recreation categories, viewing and photographing wildlife has 
grown the most over the past decade. Wilderness classification will be 
a thoughtful yet powerful tool in promoting the world-class resources 
we value in coastal Maine and will provide an integral first step 
toward a more robust and sustainable economy.
    The Maine Coastal Islands Wilderness bill is a good thing for 
seabirds, recreationists, the tourism industry, and for our nation. 
This legislation is not in response to some immediate threat to the 
islands but it is appropriate Congressional recognition regarding the 
importance of these wild islands and the entire Maine Coastal Island 
National Wildlife Refuge to the people of Maine, our economy, and the 
countless wildlife and seabirds who depend on this important resource.
    In conclusion, The Friends of the Maine's Seabird Islands urge you 
to support H.R. 2984, to protect these important and irreplaceable 
islands for our children and grandchildren to experience, just as we 
and previous generations have experienced. Thank you.
                                 ______
                                 

                    Friends of Maine Seabird Islands

                     PO Box 1231 Rockland, ME 04841

                         <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="264f484049664b474f4843554347444f54425508495441">[email&#160;protected]</a>

                      http://www.maineseabirds.org

                           November 10, 2011

Mr. Pat Keliher, Acting Commissioner
Maine Dept. of Marine Resources
21 State House Station
 Augusta, ME 04333

Mr. John Boland
Director, Bureau of Resource Management
Maine Dept. of Inland Fisheries and Wildlife
284 State Street
Augusta, Maine 04333

Acting Commissioner Keliher and Director Boland:

    The Maine Coastal Islands National Wildlife Refuge supports 
incredible diversity, ranging from coastal islands to salt marshes. Its 
56 islands and four mainland units are habitat for migratory seabirds, 
waterfowl, wading birds, shorebirds, songbirds, raptors, and a 
diversity of plants and other wildlife. Refuge lands provide Maine 
citizens and tourists opportunities for hiking, photography, wildlife 
viewing, picnicking, camping, and hunting.
    The Refuge's recent Comprehensive Conservation Planning effort 
found that 13 of the Refuge's islands (totaling 3,125 acres) qualify 
for protection under the National Wilderness Preservation System due to 
their wild character, ecological features, and opportunities for 
solitude and primitive recreation. Wilderness designation prescribes 
management that ensures that mature forest habitat is retained and 
motor vehicles are never permitted. There was overwhelming public 
support for protecting these islands during public comment on the 
management plan.
    Below is a list of the 13 islands proposed for wilderness 
designation and the towns they are near:
        <bullet>  Outer Heron Island and Outer White Island: Boothbay--
        forested (eagle) & shrub
        <bullet>  Little Marshal Island and John's Island: Town of 
        Swan's Island--forested & grasslands
        <bullet>  Bois Bubert Island: Milbridge--forested
        <bullet>  Inner Sand Island: Addison--forested
        <bullet>  Halifax Island: Jonesport--botanical preserve
        <bullet>  Cross Island Complex (six islands in a geographic 
        cluster), which includes Old Man (not forested, huge razorbill 
        colony), Mink, Outer Double Head Shot, Inner Double Head Shot, 
        Scotch, and Cross Islands: Cutler--forested, bald eagles
    Wilderness lands are open to public activities such as wildlife 
viewing, hiking, camping, boating, photography, hunting, fishing, 
research, and non-motorized recreation. The Refuge's comprehensive 
conservation plan [and the wilderness designation bill] favorably 
addresses public safety, private landowner access, and adjacent 
activities, such as aquaculture and commercial fishing.
    The Friends of Maine Seabird Islands (FOMSI) is leading the 
campaign to enact wilderness designation for the13 islands. Congress 
enacted the Wilderness Act in 1964, which created the National 
Wilderness Preservation System (NWPS) and reserved to Congress the 
authority to designate wilderness areas. FOMSI is working with Maine's 
Congressional Delegation in this effort.
    FOMSI desires that the departments of Marine Resources and Inland 
Fisheries & Wildlife join its efforts to establish wilderness 
designation for these remarkable islands and to ensure that they remain 
wild for future generations. To this end, FOMSI is seeking a letter of 
support from each agency. Given your prominent role in the conservation 
and management of coastal wildlife and habitat, your support for 
wilderness designation would greatly advance FOMSI's outreach to our 
Congressional delegation, as well as organizations, businesses, and 
individuals. I look forward to discussing this further with you at our 
November 21st meeting in Hallowell.
    Wildlife watching and ecotourism bring millions of dollars into 
Maine's economy annually. Not only for the guides and boats that bring 
people to these beautiful places, but for hotels, restaurants, and 
stores that serve them. This classification will be an incredible asset 
to promoting the world-class resources we have here in Maine and 
building on this sustainable piece of our economy.

Sincerely,

Stephanie L. Martin
Programs Coordinator, Friends of Maine Seabird Islands
                                 ______
                                 
    Mr. Bishop. Thank you. Thank you for your testimony.
    Mr. Lujan, do you have any questions?
    Mr. Lujan. Mr. Chairman, just to let Ms. Martin know we 
appreciate her being here with the family. And Mr. Pool, again, 
we have some questions we will submit to the record, and just 
appreciate you getting back to us.
    Thank you so much for your advocacy, and my best to your 
family.
    Mr. Bishop. Mr. Kildee, do you have questions?
    Mr. Kildee. No, thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I did receive for my part a letter 
who is the Chairman of the Washington County Commission. I ask 
unanimous consent that that be put in the record.
    [The letter from Christopher Gardner submitted for the 
record by Mr. Bishop follows:]
[GRAPHIC] [TIFF OMITTED] 73547.001

.eps[GRAPHIC] [TIFF OMITTED] 73547.002

    .epsMr. Bishop. With that, if there are no other questions, 
we thank you. And in all sincerity, questions are because of 
the caliber of the testimony that was given. Thank you very 
much.
    We have one other bill, 1818. Ms. Weldon, I think you are 
the one. You have five minutes to testify. If you take that 
much time, this bill is dead. We still have eight minutes to go 
and vote. Would you like to testify on this bill, briefly?
    Ms. Weldon. Briefly, yes. Thank you for the opportunity. 
The Department has no objection to the Mt. Andrea Lawrence 
Designation Act of 2012. This legislation directs the 
designation of an unnamed 12,240-foot peak located on the 
boundary between Ansel Adams Wilderness Area and Yosemite 
National Park as Mt. Andrea Lawrence. The management of the 
proposed Mt. Andrea Lawrence is shared between the Inyo 
National Forest and Yosemite National Park.
    Ms. Lawrence was a successful Olympic athlete and a 
committed public servant, having served 16 years on the Mono 
County Board of Supervisors, and founded the Andrea Lawrence 
Institute for Mountains and Rivers.
    She was a strong supporter of the work of the Inyo National 
Forest and Yosemite National Park. She worked tireless to 
protect the health and vitality of the environments and 
economies of the Eastern Sierra and the Sierra Nevada region as 
a whole.
    Ms. Lawrence passed away at the age of 76 on March 31, 
2009. The Department recognizes the contributions of Ms. 
Lawrence to both the U.S. and California, and concurs with the 
principles of the legislation. We would update our maps as 
quickly as possible once it is passed. Thank you.
    [The prepared statement of Ms. Weldon on H.R. 1818 
follows:]

Statement of Leslie A.C. Weldon, Deputy Chief, National Forest System, 
   Forest Service, U.S. Department of Agriculture, on H.R. 1818, Mt. 
                Andrea Lawrence Designation Act of 2012

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
on H.R. 1818, the Mt. Andrea Lawrence Designation Act of 2012. We have 
consulted with the U.S. Department of the Interior--National Park 
Service in the preparation of this statement.
H.R. 1818--Mt. Andrea Lawrence Designation Act of 2012
    This legislation directs the designation of an unnamed 12,240 foot 
peak, located on the boundary between Ansel Adams Wilderness Area and 
Yosemite National Park approximately six tenths miles (0.6) northeast 
of Donahue Peak, as ``Mt. Andrea Lawrence.'' The management of the 
proposed Mt. Andrea Lawrence is shared between the Inyo National Forest 
and Yosemite National Park.
    Ms. Lawrence was a successful Olympic athlete and a committed 
public servant, having served 16-years on the Mono County Board of 
Supervisors and founded the Andrea Lawrence Institute for Mountains and 
Rivers. She was a strong supporter of the work of the Inyo National 
Forest and Yosemite National Park. She worked tirelessly to protect the 
health and vitality of the environment and economies in the Eastern 
Sierra and the Sierra Nevada Region as a whole. Ms. Lawrence passed 
away at the age of 76 on March 31, 2009.
    The Department has no objection to the enactment of H.R. 1818 and 
notes that it would have no adverse impact to the management of the 
Inyo National Forest, or the Ansel Adams Wilderness.
    However, the Board on Geographic Names was created by Congress in 
1947 to establish and maintain uniform geographic name usage throughout 
the Federal Government. It is Board policy not to consider names that 
commemorate living persons. In addition, a person must be deceased at 
least 5-years before a commemorative proposal will be considered. In 
accordance with the Board's interpretation of Wilderness Act of 1964, 
the Board on Geographic Names discourages naming features in 
congressionally designated wilderness areas unless an overriding need 
can be demonstrated. Although the Department does not have any 
objections to the enactment of H.R. 1818, maintaining consistency with 
the longstanding policies of the Board on Geographic Names is 
recommended.
    The Department recognizes the contributions of Ms. Lawrence to both 
the United States and California, and concurs with the principles 
embodied in the legislation. Should the legislation be enacted, the 
Forest Service would work to ensure that our visitor information maps 
reflect the new designation, and understand that the National Park 
Service would do the same when their maps, signs, and other 
informational materials are replaced or updated.
    This concludes my statement, I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Bishop. Thank you very much. I appreciate.
    Do you have any questions on this one?
    Mr. Lujan. Mr. Chairman, again, Deputy Chief, we appreciate 
you being here. We have a few questions we will submit to the 
record.
    Mr. Bishop. We will offer all of our witnesses--we would 
ask you to be prepared to receive written questions from 
Members of the Committee. And we would ask for your response to 
those written questions if and when they arrive to you.
    With that, I appreciate all of you being here. I appreciate 
the ability of going through these four bills in a timely 
manner. Thank you for your testimony. Thank you for your 
willingness to be here. Some of you have traveled great 
distances; I appreciate that very much.
    If there are no other issues or questions, we will stand 
adjourned.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

Statement submitted for the record by The Honorable Howard P. ``Buck'' 
 McKeon, a Representative in Congress from the State of California on 
                               H.R. 1818

    Good morning, Chairman Bishop, Ranking Member Grijalva, and members 
of the committee. Thank you for holding this hearing today and the 
opportunity to testify on legislation I introduced, H.R. 1818, the 
Mount Andrea Lawrence Designation Act of 2011.
    I had the honor to personally know and work with Andrea Mead 
Lawrence on several occasions, especially for the protection of the 
Eastern Sierra. I have introduced this legislation at the request of my 
constituents in the Eastern Sierra of California who recognize the 
significant accomplishments of Andrea personally, but more importantly 
the lasting positive legacy she left on the region. I would ask 
unanimous consent to insert into the record numerous letters of local 
support for designation of Mt. Andrea Lawrence.
    Andrea Mead Lawrence was born in Rutland County, Vermont on April 
19, 1932 where her life-long love of winter sports and appreciation for 
the environment was fostered. A skilled skier, she competed in the 1948 
Winter Olympics in St. Moriz, Switzerland as well as the 1956 Winter 
Olympics in Cortina d'Ampezzo Italy. She also served as the torch 
lighter at the 1960 Winter Olympics in Squaw Valley, California. In the 
1952 Winter Olympics in Oslo Norway, she won two Gold Medals in the 
Olympic special and giant slalom races. To this day, she remains the 
only United States double-gold medalist in alpine skiing. For her 
significant accomplishments, she was inducted into the U.S. National 
Ski Hall of Fame in 1958, at the age of 25.
    These remarkable achievements at a young age, however, were just 
the beginning of a life of service to her community and environmental 
preservation. In 1968, Andrea moved to Mammoth Lakes in the 
spectacularly beautiful Eastern Sierra of California. It was in this 
special region she spent the rest of her life working to protect the 
area's natural treasures.
    Never one to rest on her accomplishments, she founded the Friends 
of Mammoth to maintain the beauty and serenity of Mammoth Lakes and the 
Eastern Sierra. She served for 16 years on the Mono County Board of 
Supervisors, where she worked tirelessly to protect and restore Mono 
Lake, Bodie State Historic Park, and other important natural and 
cultural landscapes of the Eastern Sierra. As a member of the Great 
Basin Air Pollution Control District, she worked to reduce air 
pollution caused by the dewatering of Owens Lake. In 2003, she founded 
the Andrea Lawrence Institute for Mountains and Rivers to protect the 
environment and the economic vitality of this important region.
    In 2008, she testified before the Mono County Board of Supervisors 
in favor of the Eastern Sierra and Northern San Gabriel Wild Heritage 
Act, a bill enacted the day before she died on March 31, 2009 at the 
age of 76. Andrea left a rich legacy of a family of five children, 
including Quentin Lawrence who will testify today, four grandchildren, 
as well as a distinguished record in skiing and, most importantly, her 
tireless efforts have left a better legacy for the people who live and 
recreate in the Eastern Sierra.
    Andrea Mead Lawrence's life philosophy is summed up in her quote 
``Your life doesn't stop by winning medals. It's only the beginning. 
And if you have the true Olympic spirit, you have to put it back into 
the world in meaningful ways.'' Mr. Chairman, in light of the 
remarkable life and work of Andrea Mead Lawrence, it is very fitting to 
name Peak 12,240 ``Mt. Andrea Lawrence'' both in her honor and as a 
visible point of inspiration for future genterations.
                                 ______
                                 

    Statement of The Honorable Michael Michaud, a Representative in 
             Congress from the State of Maine, on H.R. 2984

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee--thank you for holding this hearing on H.R. 2984, the 
``Maine Coastal Islands Wilderness Act.'' I would also like to thank 
Chairman Hastings and Ranking Member Markey of the full committee for 
their continued efforts to address wilderness issues.
    Stephanie Martin will also testify today in support of this bill. 
Stephanie is on the Board of Directors of the Friends of Maine Seabird 
Islands, and she will discuss the local benefits and support of the 
bill. I want to express my appreciation to the Friends of Maine Seabird 
Islands for their collaborative efforts to restore seabird wildlife 
habitat and promote nature-based tourism. I would also like to thank 
Representative Pingree for partnering with me on this legislation, 
which includes islands in both of Maine's Congressional Districts.
    H.R. 2984 would designate 13 coastal islands--approximately 3,256 
acres--as federal wilderness areas within the Maine Coastal Islands 
National Wildlife Refuge complex. This wilderness designation will 
achieve two important objectives. First, it will increase the 
marketability of this area to tourists and give a boost to the local 
economy. Second, it will codify the current status of these islands, 
which reflects a thoughtful balance between recreational, fishing and 
aquaculture, and refuge uses.
    The process of drafting this bill has been a long one. In 2004 the 
Maine Coastal Islands Wildlife Refuge began their first conservation 
planning process. They held two years of public hearings to discuss 
various issues relating to the Refuge, including whether or not the 13 
islands my bill addresses should receive the federal wilderness 
designation. As a result of the broad support for the wilderness 
designation, their 2006 final conservation plan included the 
recommendation that Congress pass legislation to establish the Maine 
Coastal Island Wilderness Area.
    Since that recommendation my office has heard from numerous 
organizations asking me to introduce legislation that would codify the 
wilderness designation for these 13 islands as recommended six years 
ago by the Refuge's conservation plan. In addition to listening to 
these groups, my office also talked to other constituencies to ensure 
that they were on board with this initiative.
    This outreach effort raised several legitimate concerns that I have 
attempted to address by inserting provisions in this legislation that 
are critical to its objective. Because many of these provisions are 
unique for wilderness designation bills, I'd like to take the time to 
explain them.
    First, my legislation clarifies the seaward boundary of each 
wilderness island to be the well-defined high water mark to ensure that 
motorized boats can still land on these islands, a priority for local 
fishermen and recreationists. Second, the legislation clarifies that 
there are no buffer zones or impacts to nonwilderness activities 
adjacent to the wilderness boundaries to further guarantee fishermen's 
and recreationists' access to these islands. Third, although man-made 
devices are generally not permitted in wilderness areas, my legislation 
allows for the installation of essential navigational devices to 
accommodate all public safety concerns. Finally, this bill explicitly 
protects private property rights by excluding all private lands and 
access right-of-ways from the recommended wilderness boundaries.
    I am very grateful for the local organizations' willingness to 
collaborate with me on this project to ensure that this bill suits the 
communities and industries it seeks to support. I believe the final 
result is a balanced approach to conserving these unique island 
landscapes while making sure that the public can still enjoy them. If 
the Committee believes, however, that any concerns can be more 
completely addressed, I am more than happy to work with you to amend 
the bill to make it even stronger between now and when it comes to the 
Floor.
    My primary motivation for introducing this bill was its economic 
benefit. As you know, Mainers have a lot of pride in their beautiful 
state, and much of our economy depends on getting more people to see 
for themselves just how beautiful it is. In that vein, this legislation 
will make it easier for these coastal communities to market themselves 
and grow their nature-based tourism. The Penobscot Bay Regional Chamber 
of Commerce and members of the Ellsworth Area Chamber of Commerce, as 
well as many other local organizations, support this wilderness 
designation for this reason. During these times of high unemployment 
and a stagnant economy, especially in coastal communities where the 
fishing industry faces numerous issues, I am a strong advocate of 
efforts that encourage private sector job growth. That is why I 
introduced H.R. 2984.
    My secondary motivation for introducing this bill was to ensure 
that these coastal islands remain as they are. My legislation, as you 
know, simply assigns these islands the official title of the Maine 
Coastal Islands Wilderness Area. But by including the special 
provisions that I mentioned above, H.R. 2984 also codifies, and 
therefore makes harder to change, the islands' current status and 
accessibility. Mainers are very proud and protective of their land, 
which is why I've carefully crafted this bill not only to make the 
wilderness designation but also to clarify that the land's current uses 
will remain the same.
    In closing, once again I would like to thank Chairman Bishop and 
Ranking Member Grijalva for bringing this bill before the Subcommittee 
on National Parks, Forests and Public Lands and for the opportunity to 
provide my testimony today. I ask the committee to support this 
balanced effort to help local communities in Maine enhance their 
efforts to grow their nature-based tourism sectors while preserving the 
accessibility and use of these coastal islands.
    Thank you.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
